<html>
<title> - RURAL TEACHER HOUSING ACT</title>
<body><pre>[Senate Hearing 108-468]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-468

                       RURAL TEACHER HOUSING ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1905

   TO PROVIDE HABITABLE QUARTERS FOR TEACHERS, ADMINISTRATORS, OTHER 
  SCHOOL STAFF, AND THEIR HOUSEHOLDS IN RURAL AREAS OF ALASKA LOCATED 
                      NEAR ALASKA NATIVE VILLAGES

                               __________

                             MARCH 16, 2004
                             ANCHORAGE, AK


                    U.S. GOVERNMENT PRINTING OFFICE
92-775                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1905, text of.................................................     4
Statements:
    Angapak, Sr., Nelson, executive vice president, Alaska 
      Federation of Natives, Anchorage, AK.......................    26
    Cole, Peggy, teacher, Emmonak School, Lower Yukon School 
      District, Emmonak, AK......................................    14
    Davis, Jennifer, Technology Trainer, Northwest Arctic Borough 
      School District, Alaska....................................    16
    Hill, Frank, co-director, Alaska Rural Systemic Initiatives 
      and former superintendent, Lake and Peninsula Borough 
      School District, Anchorage, AK.............................    26
    Madsen, Eric, director, Rural Program Development, School of 
      Education, University of Alaska, Fairbanks, AK.............    24
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............     1
    Simon, Christopher, superintendent, Yukon-Koyukuk School 
      District, Fairbanks, AK....................................    18

                                Appendix

Prepared statements:
    Bauer, Dave former principal, Savoonga School, Bering Strait 
      School District............................................    37
    Cladouhos, president/CEO, Norton Sound Health Corporation....    37
    Clark, Robert J., president/CEO, Bristol Bay Area Health 
      Corporation................................................    38
    Cole, Peggy..................................................    38
    Davis, Jennifer..............................................    39
    Hill, Frank..................................................    40
    Hill, Melissa, Alaska teacher placement progam director......    42
    Madsen, Eric.................................................    43
    Rose, Carl, executive director, Association of Alaska School 
      Boards (with attachment)...................................    44
    Sampson, Roger, commissioner, Department of Education and 
      Early Development..........................................    46
    Simon, Christopher...........................................    47

 
                       RURAL TEACHER HOUSING ACT

                              ----------                              


                        TUESDAY, MARCH 16, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                     Anchorage, AK.
    The committee met, pursuant to notice, at 9 a.m. in 
Conference Room 2, First Floor, Alaska Native Medical Center, 
Anchorage, AK, Hon. Lisa Murkowski (acting chairman of the 
committee) presiding.
    Present: Senator Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. As acting chairman of the U.S. Senate 
Indian Affairs Committee, I call this hearing to order.
    This hearing is on S. 1905, the Rural Teacher Housing Act 
of 2003 which I introduced in the Senate late last year. I have 
invited a panel of witnesses from across the state to share 
their thoughts and personal experiences on this very important 
issue with me today. As we all know, rural school districts in 
our State face the challenge of recruiting and retaining 
teachers, administrators, and other school staff due to the 
lack of housing in many of our rural communities. For example, 
1 year in the Lower Kuskokwim School District they hired one 
teacher for every six who decided not to accept job offers.
    One-half of the applicants decided not to accept a teaching 
position in that district based on the lack of housing. Last 
year when I traveled with U.S. Secretary of Education, Rod 
Paige, I wanted to have him see firsthand the challenge of 
educating our children in rural Alaska. At the village school 
in Savoonga we met with the principal who was living in a broom 
closet. We met the special education teacher who at the end of 
the day pulled a mattress out of a closet in her classroom and 
slept on the floor of the classroom there. The other teachers 
shared housing in a single home. So, needless to say, there is 
no room, there is no space for spouses, for families in many of 
our communities. And Savoonga, unfortunately, is not an 
isolated example.
    We were able to make a tangible difference after our visit 
in Savoonga. As a result of something that we call the Alaska 
Project which is a Cabinet-level task force consisting of the 
Federal departments of Education, Health and Human Services, 
and Housing and Urban Development, focused on interagency 
collaboration to address education, health, and housing 
challenges that face Alaska. We were able to implement a short-
term housing solution there in Savoonga along with our other 
partners, Denali Commission, State of Alaska, Alaska Housing 
Finance Corporation, HUD, HHS, the Bering Strait School 
District, the city of Savoonga, Savoonga IRA Council and the 
Alaska Native Tribal Health Consortium. In working with all of 
these stake-holders, we secured an agreement that will allow 
the Bering Strait School District to use the former Savoonga 
clinic building to house teachers for a period of a couple 
years beginning last November. And with Denali Commission 
funding, we were able to renovate the clinic and teachers that 
were previously living in the Savoonga school are now 
temporarily housed in the renovated clinic.
    I am also working on other initiatives to--to deal with the 
housing issues for our teachers. I have secured up to $10 
million in the Denali Commission's fiscal year 2004 budget for 
teacher housing projects in rural communities. I am hopeful 
that a portion of that funding or any other available housing 
funding will also go not only to Savoonga to address the long-
term challenge of teacher housing there, but to our other rural 
communities.
    When we look at the example of Savoonga, we recognize again 
this is not just an isolated instance. What is happening in the 
other parts of rural Alaska, what can we do? And so this 
legislation that I've introduced, S. 1905, does address the 
Statewide problem. If we don't address the situation in terms 
of teacher housing, we really have no way to deal with the 
issue of recruitment and retention. Turnover in some of our 
rural areas is as high as 30 percent each year. And housing is 
truly a major factor, if not the number one factor, in that 
turnover rate. And as we are faced with the many challenges 
that present themselves with education, whether it's meeting 
the Federal requirements of No Child Left Behind, whether its 
declining State budgets that affect our education budget, we 
recognize that we must do something on this issue if we expect 
our children to get a good education. The only way they can get 
a good education is if we have good teachers. And if our good 
teachers are not willing to commit to a community because of 
inadequate housing, we haven't helped our kids.
    So my bill authorizes the Federal Department of Housing and 
Urban Development to provide the teacher housing funds to AHFC. 
In turn, AHFC is authorized to provide grant and loan funds to 
the rural school districts in Alaska for teacher housing 
projects. This will allow the school districts to address the 
housing shortage through construction of units, purchasing 
units, leasing, rehabilitating, purchasing leased property, 
purchasing rehabilitated properties, repay loans secured for 
teacher housing projects, provide funding to fill any gaps not 
previously funded by loans or other forms of financing, and 
conduct any other activities normally related to construction. 
These activities are is an important part of it because these 
activities would include tasks such as connecting housing units 
to various utilities. You might be able to get the housing 
units out there, but if they're not hooked into the utilities 
it doesn't do us much good. It also would cover the preparation 
of construction sites and transporting all equipment and 
material necessary for the project to and from the construction 
or renovation site. And as all of you know who have spent any 
time in the rural areas, this last component is very important 
because of the high transportation costs that are involved; 
getting the materials and equipment there is a huge 
undertaking. Eligible school districts that accept funds under 
this legislation will be required to provide the housing to 
teachers, administrators, other school staffs and members of 
their household.
    In closing, it is imperative that we address this important 
issue immediately, and allow the flexibility for the 
disbursement of funds to be handled at the state level. The 
quality of education for our rural students is at stake, and 
this is why we have moved forward with, I feel, very, very 
important legislation. We have asked a select group of 
individuals to join us in presenting their testimony here 
today. There are two panels that we will hear from, but I will 
invite any who would like to submit written testimony to do so. 
We will keep the record open on this for an additional 2 weeks 
from today's hearing date. So if in fact you would like to 
submit additional testimony, please feel free to do so. We've 
asked our witnesses to limit their testimony to 5 minutes. If 
they would like to add more in written comment to be added to 
the record beyond that, they are certainly welcome to do that 
as well. If you are interested in submitting any testimony to 
the record, the committee aide for the Committee on Indian 
Affairs is with us, and we will make sure that you have that 
information so that you can give that to the appropriate 
individuals at the appropriate time.
    [Text of S. 1905 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Murkowski. So, at this time I would like to invite 
those on panel 1 to join me at the table. Peggy Cole is a 
teacher and NEA member from Emmonak School in the Lower Yukon 
School District, Jennifer Davis, the Itinerant Technology 
Trainer, NEA Alaska member is, associated with the Northwest 
Arctic Borough School District up in Kotzebue, and Christopher 
Simon, is the superintendent of the Yukon-Koyukuk School 
District out of Fairbanks, AK. So if the three of you can just 
join us up front here, please.
    Ms. Cole, if we can begin the testimony with you. Welcome, 
and I am pleased to have you with the committee this morning.

    STATEMENT OF PEGGY COLE, TEACHER AND NATIONAL EDUCATION 
ASSOCIATION--ALASKA MEMBER, EMMONAK SCHOOL, LOWER YUKON SCHOOL 
                     DISTRICT, EMMONAK, AK

    Ms. Cole. Thank you, Senator Murkowski. My name is Peggy 
Cole and I'm a teacher in the Lower Yukon School District 
[LYSD], located in western Alaska. Our school district consists 
of 11 sites spread along the Yukon River and the Bering 
seacoast covering approximately 22,000 square miles. We have 
2,039 students, 99 percent of which are Yupik Eskimo. I have 
taught in LYSD for 12 years and have lived in teacher housing 
during that time. My family and I have lived in three villages 
in our school district. At each site, we have lived in BIA 
housing units, which are about 50 or more years old with very 
little maintenance throughout those 50 years. They have many 
problems and are in need of costly repairs. In the villages in 
which we live, we are required by contract to live in the 
teacher housing that is provided by the school district, and 
they pickup the cost of utilities and water and sewer and we 
pay a rent to the school district which comes directly out of 
our salary. So in many cases, it looks to people like we make a 
very large salary, but when you start deducting our rent from 
that salary and 5 percent of our salary to boot, it gets to be 
quite a bit of money. We were able, at our last negotiations, 
to negotiate out the 5 percent because it was penalizing our 
higher paid and more experienced teachers and they were leaving 
the district because it was costing them so much. So we were 
able to get that out of our contract. And right at this point, 
our housing rent is fairly low but--that's going to change in 
another year when we have to go back to the table. They've 
already told us they plan to up the rent. In our villages there 
are virtually no houses available to rent, and what is 
available would be considered to be very substandard by most 
people. In the villages the housing that the people live in 
themselves is substandard. They're open around the bottom. 
They're very cold. Many of them do not have running water. They 
do not have adequate sewage, transportation back and forth. 
Many of the villages still have what we call ``honey buckets'' 
which means there is no sewage in the house. You have to take 
your bucket and empty it. And there are--fortunately, in our 
District, no teachers living in that condition, but if we were 
to try to rent from the communities we would have that type of 
housing in some communities. The cost of living in rural Alaska 
is very high compared to Anchorage. And a very simple example 
is that milk in Anchorage costs about $3.50 a gallon, whereas 
in rural Alaska and the village that I'm from it's $9 a gallon, 
and it's not always available. Supplies of all types have to be 
flown into the village during the year, or barged-in during the 
summer months. There are no roads connecting western Alaska to 
a hub where supplies can be purchased. And I think that this 
might be really important for people that don't live in Alaska 
to fully understand our condition, that we have to fly in to 
our village. We can't drive there. There are no choices for us 
as far as supplies or places to live. When you're in the 
village or flown into the village, that's where you stay until 
you decide to fly out at Christmas possibly, or in the 
summertime. So there's very little available.
    While working in our school district, I have had the 
opportunity, as the president of our local association, to 
visit many of our teacher housing units. We have 104 in our 
school district. In the last 12 years there have been only 
eight new buildings constructed, new units. During the summer 
of 1996, as a cost saving measure, our District purchased three 
mobile homes and barged them to Hooper Bay to act as teacher 
housing. Well, that didn't work at all because when they set 
them up on foundations, they came apart and the walls cracked 
and there were many, many water and sewer problems. And our 
school district does want to keep the rent at a reasonable 
price in order to attract and retain quality teachers which 
will provide stability in our classroom, but building new 
houses in rural Alaska is extremely costly. So last summer, the 
summer of 2003 as a ``Band-Aid'' to our problem, the District 
spent $1 million from their capital improvements fund in order 
to upgrade our existing housing throughout the District. And 
these upgrades have helped to make the houses look better 
aesthetically, you know, you look at them, oh gee, they're 
painted on the outside for the first time in 50 years and some 
of them have some new carpet and new paint on the walls. But 
the underlying issues with water and sewer, electrical, 
structural have not been solved. In fact, in my own housing 
unit where I live in Emmonak, our power went out at Christmas 
2002. We lost all the meat in our freezer. They came out and 
there was some problem underground which they couldn't fix 
because the ground was frozen, so they hay-wired our house 
across to the old BIA school building, and it remained that 
way, they were supposed to fix it this summer. It was never 
fixed. So we're still hay-wired and now weekly our electricity 
goes off. We have to call the principal. They have to go over 
and flip a switch in the old school. And the switch is like a 
70 amp fuse and our house is over 200 amps, so it doesn't work. 
It's not been repaired. And to me, it's dangerous. You know, 
the house could burn down, and we have issues like that all 
over our school district. At some sites our single teachers are 
required to live together because of the scarcity of adequate 
housing units. That does not promote stability in our teaching 
staffs. Because many teachers don't want to be dropped into a 
situation where you have to live with a total stranger. People 
are unhappy. They don't get along. Some teachers have been 
known to move out of their housing unit and go live in their 
classroom because they could not get along with this total 
stranger that is living with them.
    The bill that Senator Murkowski has introduced would be an 
awesome bill if we could get it passed because it would 
certainly help our local school districts find the funding that 
they need to build the housing in the school district for the 
teachers in order to retain quality teachers. It would also 
provide jobs for our local people because they would help with 
the construction, so that--the communities would be very 
accepting of that because it would give them an income into 
their households. So with the added stress to the budget of the 
new NCLB law and the increase to our PERS and TERS and the 
increasing cost of insurance, in our school district there is 
no money available. S. 1905, the Rural Teacher Housing Act of 
2003, which Senator Murkowski is sponsoring, would make moneys 
available to these rural districts, like LYSD. This money would 
allow our district to build new teacher housing units, which 
would help to entice teachers to come to rural Alaska to work. 
The passage of this bill would also allow the district to get 
the needed money to bring all of our housing units up to the 
rigid standards of today's world. I strongly encourage you to 
support Senator Murkowski in her efforts to get S. 1905 passed.
    Thank you.
    [Prepared statement of Ms. Cole appears in appendix.]
    Senator Murkowski. Thank you, Ms. Cole. I appreciate your 
testimony.
    Ms. Davis.

 STATEMENT OF JENNIFER DAVIS, ITINERANT TECHNOLOGY TRAINER AND 
NATIONAL EDUCATION ASSOCIATION--ALASKA MEMBER, NORTHWEST ARCTIC 
             BOROUGH SCHOOL DISTRICT, KOTZEBUE, AK

    Ms. Davis. Thank you, Senator Murkowski. I work as an 
itinerant technology trainer for my school district, and that 
means a morning commute of one-half hour to 1 hour on a bush 
plane as I travel through the 11 villages in our district. And, 
they vary in size from about 100 people to 3,000 in our hub 
community, Kotzebue, where I live. There are no roads 
connecting these communities, and our school district is about 
37,000 square miles or approximately the size of Indiana. In 
Kotzebue where I live, there is no school district provided 
housing. Everyone is required to locate their own housing in 
the community and then pay extremely high costs for what many 
consider to be substandard conditions. I live in a 250-square 
foot apartment or approximately one-fifth of the size of this 
room, and I pay $1,050 a month in rent. I actually feel very 
lucky that I was able to find an apartment that is clean and 
comfortable even though it is very small. There is a shortage 
of housing in Kotzebue, so people will take anything they can 
find, sight unseen, over the phone when they move there. Which 
is what I did. I spoke to two other new teachers on the phone 
before moving to Kotzebue and we arranged to live together in 
order to save money, and moved into a so-called furnished 
apartment that had one couch, one bed in a three bedroom, and 
we each paid $800 a month. The place was filthy and sinking 
into the permafrost on one side, so we had everything roll 
across the apartment. After 1 year of living like that, I did 
not think I would stay in Kotzebue, but luckily I moved into my 
current housing, and as I said, it is comfortable.
    So I have made it my home. And housing, if it's not 
comfortable, you can't make it your home, and that's why we 
lose so many teachers. It's not home to them. As I travel 
around to all of the villages in my district, I do stay with 
teachers. There are no hotels and so I'm on couches and floors 
in other teacher housing and I get to see all of it. It varies 
greatly from site to site. We have many teachers who have to 
lease from the community and those places are not kept up. Many 
have ``honey buckets'', no running water, no sewer, and you 
empty the bucket. Very high costs of housing also. The school 
district has provided housing in most of the communities and it 
is subsidized. But the quality is very substandard. Places 
would be condemned in many parts of the country. Every fall 
they get overrun by shrews, they're called little rodents, into 
the housing. In villages that will allow it, the teachers will 
try to purchase housing. Occasionally they can make a plea to 
the regional IRA council and ask if they can lease, since they 
cannot buy land to build housing on. We have teachers who would 
love to make our communities home, but housing is such an issue 
that they chose to leave and go somewhere where they can own or 
build a house. There is the housing that we do have, the 
district housing, which is in such need of renovations and 
repairs. Teachers report unsafe living conditions in or around 
their apartment, lacking in maintenance. We had a teacher 
injured this year because of a leak in her ceiling that had 
been there for about 1\1/2\ years, unrepaired, and she slipped 
and fell and shattered her ankle. Some of our teachers have to 
haul their own water and oil for their housing. That takes up 
time away from their students and their classroom. I think that 
the Rural Teacher Housing Act would help our district and 
districts across the state, in attracting and retaining quality 
teachers and educators. We currently have about a 30-percent 
turnover every year of our teaching staff, and the conditions 
and the cost of our housing is one of the main reasons that 
people leave. Every year I think about signing my contract and 
create a list of why I want to stay and why I would choose to 
leave. And at the top of my list, and it is often the only 
reason that I would leave, is my housing. This act would make 
it possible for the district to build and provide housing for 
Kotzebue teachers. We don't have any district housing, and it 
would allow people to feel able to make it their home, to make 
Kotzebue home. I would love to stay there long-term, but I 
don't know if I can with the current housing situation. Most of 
our villages need more housing to be built. There is not 
enough. You've got teachers in a two-bedroom with four people 
who did not know each other prior to living there, sharing 
rooms, living in their classrooms. Our villages need more 
housing and for serious renovations to be made. Many educators 
move to Northwest Arctic with the intent of making it their 
home but don't feel they have adequate, comfortable, affordable 
housing. The high teacher turnover that we currently have is 
hard on the children in the region and I think anything we can 
do to improve teacher retention will benefit our students and 
our kids. I think that this bill is a step in the right 
direction. Thank you.
    [Prepared statement of Ms. Davis appears in appendix.]
    Senator Murkowski. Thank you.
    Mr. Simon, good morning.

 STATEMENT OF CHRISTOPHER SIMON, SUPERINTENDENT, YUKON-KOYUKUK 
                 SCHOOL DISTRICT, FAIRBANKS, AK

    Mr. Simon. Good morning, Senator. Thank you for your 
interest and involvement in education issues in rural Alaska 
and for working to address our concerns related to teacher 
housing. I welcome the opportunity to provide support for S. 
1905 and share experiences of providing teacher housing with 
you. The Yukon-Koyukuk School District covers the Western 
interior of Alaska, an area of 65,000 square miles. 
Geographically, the district is larger than the State of 
Washington. Our schools serve nine villages of about 1,650 
people with 430 school-aged children in grades K-12. More than 
90 percent of the students are Koyukon or Tanana Athabaskan 
Indians. Except for Manley and Minto, travel to and from our 
schools is by scheduled commuter or charter air service. Raven 
correspondence School is a Statewide correspondence program, 
which embraces 1,399 students and their families. Y-KSD employs 
64 certified teachers, administrators and specialists, most of 
whom are endorsed in their field of placement. According to 
standardized test scores over the last 13 years, the students 
at our village sites performed between the 18th and 40th 
percentile. Over the last 5 years, there has been an increase 
in the scores, which are currently sitting between the 30th and 
40th percentile. Under No Child Left Behind, each school is to 
meet Adequate Yearly Progress or eventually face sanctions. At 
this point, four of our five village sites meet AYP, four 
schools are at AYP Level I, and one is at AYP Level II. In 
order to provide a sound education, attain better test results 
to meet AYP and increase students' test scores, all rural 
schools need outstanding teachers and principals. One of our 
biggest obstacles in providing a sound education is teacher and 
principal turnover. Between this year and last year, Y-KSD had 
a 29-percent turnover in teachers and a 44-percent turnover in 
principals. Three teachers and one school counselor left one or 
more of our communities since school started in August. Studies 
have shown that hiring teachers with three to five years of 
experience pays the biggest dividends in the classroom. What we 
have now is rural districts hiring young teachers who stay 2 to 
4 years then leave to find employment in an urban district or 
one that is connected by the road system. We are, in fact, 
training teachers. Yet we are the ones who need experienced, 
dedicated teachers for the children under our care. One of the 
first questions an interested teacher or principals asks is 
``Is housing provided? And if so, what is the rent?'' Not long 
afterward is the question: ``Do I have to share housing?'' 
Adequate teacher housing is vital to the success of our 
students. And unfortunately, the choice of spending scarce 
resources for classroom equipment and supplies or for teacher 
housing is something we face every year. Y-KSD would rather not 
be in the business of teacher housing because it is being 
operated at a loss.
    Ten years ago, Y-KSD gave one-half of its teacher housing 
to a village corporation free of charge. Last summer, this same 
corporation gave the last housing unit back to the district. 
Providing housing is a time-consuming and financial burden to 
any organization. However, Y-KSD provides this service at a 
loss so quality teachers may be hired to teach the children of 
this district. The issue of substandard teacher housing is 
raised in this bill. Yes, this is an issue this district faces. 
Two years ago, Y-KSD provided a rental free-of-charge to a 
couple and their two young children. This district did not want 
to be held responsible if any harm came to this young family 
due to the condition of the building. Currently, two teachers 
are renting a duplex that is 29 years old and very inefficient. 
The estimated operational cost is $247,000 over the next 6 
years; 4 years ago, in another village, Y-KSD purchased a house 
which included a storage shed. This same shed had been 
converted to a housing unit; 3 years ago, a young man and his 
daughter lived in the school for 2 months before finding a 
local house to rent. Y-K has been trying to meet the housing 
needs of its teachers. But in doing so, it takes funds and 
maintenance time away from the schools. Since 2000, Y-KSD spent 
$702,138 on housing instead of the classroom. The cost of 
constructing a two-bedroom, one-bathroom house in 2002 was 
$169,000. Included in this cost is the purchase price of 
$99,677 and $69,992 for freight, construction, and utility 
hook-ups. An estimated 17 rental units in 6 communities are 
required to meet our teacher housing needs in the next few 
years. YKSD simply does not have the amount of funds necessary 
to build housing. In closing, teacher housing is a necessity 
for rural districts, usually operated at a loss and takes 
scarce resources away from the school. Any assistance that you 
may provide would be greatly appreciated. And again, thank you 
again for your interest and concern.
    [Prepared statement of Mr. Simon appears in appendix.]
    Senator Murkowski. Thank you, Mr. Simon. Before we go into 
the next panel, I've just got a few questions to ask the first 
panelists. Ms. Cole, you were talking about the rent costs. You 
indicated that the district was trying to keep the rental costs 
down low and in fact there was some discussion about 
renegotiation next year. What do you pay for rent right now?
    Ms. Cole. In the unit that my husband and I presently 
occupy which is a small two bedroom unit with our 10-year-old 
daughter, we pay approximately $600 a month. That is down from 
over $1000 a month that we were paying a couple of years ago 
for the same substandard BIA housing.
    Senator Murkowski. And then you indicated that you have 
lived in or you taught in three other schools within the 
district, can you just real briefly describe other housing 
situations that you and your family have lived in in those 
communities.
    Ms. Cole. Yes; we first came to Lower Yukon School District 
in 1992, we lived in the village of Hooper Bay which is a 
large--one of the largest Eskimo villages, out on the Bering 
Seacoast. There is no running water. No sewer in any of the 
homes. The only place where that is, is in the school. We lived 
in an old BIA building that had been the original school in 
Hooper Bay 50 years ago, and had been remodeled into a housing 
unit. It was--we had two children and my mother living with us 
at the time. The house was roomy but had many, many problems as 
far as sewer and lighting, the floors were rotted and things 
like this. The windows were rotted. But the space was okay. We 
moved from there to Mountain Village. We had adopted a baby in 
Hooper Bay so we had a 2-year-old when we left Hooper Bay, and 
our two daughters, and my mother was our live-in baby-sitter. 
We moved into a unit in Mountain Village which was a very small 
two bedroom unit. The bedrooms were maybe 10 x 11, and there 
was not enough room for my mother and my baby daughter, so my 
mother lived in the pantry with all the shelves removed and no 
window. And our baby daughter lived in the bedroom with us and 
we were wall-to-wall beds. There was no storage in the unit at 
all. It was one of the larger units in Mountain Village. When 
we arrived, it had many problems. The porch was rotted. There 
was no railing. It was 8 feet off the ground. There was a hole 
in the bathroom floor with open sewer running under of which we 
were not aware. The feet of my three children were that close. 
When they repaired it, the superintendent came with many 
apologies that we had had to live that way for 3 years. From 
there we moved to Emmonak where we live now. And that's the two 
bedroom old BIA unit also with the electrical problems.
    Senator Murkowski. You mentioned in addition to the high 
cost of rent that you deal with, is just the high cost of 
living out in any of the rural communities, you mentioned the 
price of milk, that's always my judge in the rural versus urban 
cost as I'm looking at milk, but the other thing I think many 
people outside the State of Alaska don't recognize is the 
transportation costs that you live with because we're not 
connected by a road system. And in order to go to town, whether 
town is described as Fairbanks or Anchorage, you've got to get 
either on a jet, if you're lucky enough, or you have to fly, in 
your case, from Emmonak into--I don't know where you go, down 
to Bethel?
    Ms. Cole. No; my husband and I can fly--Emmonak is one of 
our only villages that has a direct flight to Anchorage, but 
it's a 9-seat twin prop airplane.
    Senator Murkowski. And what would you pay to fly into 
Anchorage?
    Ms. Cole. We pay $600 approximately, round-trip, for each 
one of us. So if we come in for anything as a family, it's 
$1,800 for a trip.
    Senator Murkowski. These are the add-ons that people, 
unfortunately, don't get. They don't appreciate the additional 
costs that we experience. You had also indicated in your 
testimony that there in, and I don't know whether it was just 
in Emmonak or whether it's within the whole district, that 
there have been some substantial upgrades made within the past 
year, and I think you used the term, this was a mandate, a 
cosmetic upgrade in terms of the paint, perhaps carpeting, but 
how long has it been since the district has been able to do 
what you would consider substantive upgrades to the 
facilities--to the homes in the district?
    Ms. Cole. Personally, I have been here 12 years and I have 
never seen anything done until this last summer. And having 
spoken to people that have been out there, and we do have some 
diehards that have been there 20 years in the same district, 
this is the first time they have ever had any maintenance done 
on the housing, major maintenance. And it came out of our 
negotiations because we told them we're paying--they were 
requiring us to pay 5 percent of our salary plus a base rent 
for different units which were classified anywhere from A-E, 
``E'' being maybe a one bedroom about the size of Jennifer's, 
if that big.``A'' being maybe a couple of bedrooms and maybe 
not as old as the others. And we paid 5 percent of our salary, 
and our complaint was, the more you make, the more you pay. And 
so let's see something for this. We want the 5 percent gone and 
we want some housing fixed. So as a result of our negotiations, 
our superintendent who was new to our district at that time, 
the following year after negotiations we flew around to visit 
all the housing units and notes were made as to what needed to 
be done. They coughed up $1 million, which sounds like a lot of 
money, but when you spread it out between 104 units it's not a 
lot of money. And that came right out of their funds, though. 
That was out of their capital improvement funds. So, you know, 
having money from the--from some other source would really, 
really help to maintain that housing and upgrade.
    Senator Murkowski. Thank you. I appreciate your responses. 
Ms. Davis, you've indicated that you have been in Kotzebue now 
for 5 years, where were you living before you arrived in 
Kotzebue?
    Ms. Davis. I was in Washington State teaching.
    Senator Murkowski. So, you're not a native of Alaska then?
    Ms. Davis. No.
    Senator Murkowski. So you came to Alaska looking to come 
and teach? Your first assignment was in Kotzebue?
    Ms. Davis. Yes.
    Senator Murkowski. And your first housing in Kotzebue then 
was this kind of boarding house arrangement you've described?
    Ms. Davis. Yes; I arranged--when new hires come up to the 
district for Kotzebue they are mailed a list of all of the 
other new hires, and all of the available potential housing in 
Kotzebue, which is through the community, and everything is 
arranged over the phone. The year that I was hired there were 
no other single women, so my roommates were two young men. We 
shared a two-bedroom. They had one room, I had the other. As I 
said, it was in very poor condition. We boarded up one of the 
windows. It had a hole in one of the floors. It was very dirty. 
It was sinking into the permafrost.
    Senator Murkowski. Had you ever lived in conditions like 
this?
    Ms. Davis. No.
    Senator Murkowski. Did it cause you to wonder what you were 
doing in Kotzebue?
    Ms. Davis. Yes; it did. I grew up on an Indian reservation 
in Washington. My parents teach. It was very similar. When I 
called home for the first time I said it looks just like the 
Indian housing projects. My parents said, well, the difference 
is we don't live there anymore. We don't have to live there. We 
can move outside of town and commute in. You can't do that.
    Senator Murkowski. Now, Kotzebue's situation is different 
than some of the others that we have heard in that you have to 
find your own housing.
    Ms. Davis. Yes.
    Senator Murkowski. What happens if you are unable to find 
housing? We know that at certain times housing is just not 
available. What do other teachers do?
    Ms. Davis. I had a teacher living on my floor for 1 month 
while he looked for a place to live. Others will share housing 
units temporarily. We have one teacher in Kotzebue who has been 
there now 2 years. His family lives in Anchorage. He would like 
them to come up, but he can't find a place to live for his 
entire family. He is living with two other teachers.
    Senator Murkowski. You have also indicated in your 
testimony that your job allows you to travel throughout the 
district and you mentioned there are no hotels and so you do 
kind of camp out wherever you can in the communities, so you 
probably have gotten quite a good firsthand view of what is 
available at least in the region in which you're teaching, does 
anybody have adequate housing up there in your opinion?
    Ms. Davis. There is in Noorvik which just got a new school 
building. The old elementary school is converted into housing. 
The teachers there describe it as dormitory style. There is one 
door and they go down the hallway of the old school and the old 
classrooms are now--they are housing units.
    Senator Murkowski. How many live there?
    Ms. Davis. Eight apartments, some are couples. But it is 
clean, new housing.
    Senator Murkowski. And as you talk with new teachers, 
teachers such as yourself 5 years ago just coming to the State, 
what is their reaction? What is their response when they see 
the conditions that they are expected to live in?
    Ms. Davis. Of the approximately 60 teachers who were hired 
the same year as me, there are 8 still in the district. The 
majority of those left--out of the teachers in Kotzebue there 
are two of us still in the district.
    Senator Murkowski. Where have the others gone? Are they 
still in the State?
    Ms. Davis. Many have gone to other districts in the State 
and to the road system. Most have left the State.
    Senator Murkowski. And is there a universal reason that 
they leave?
    Ms. Davis. The district does a survey, an exit survey when 
people leave and prior to coming down to this meeting I asked 
for the surveys from the district and almost every single 
person, housing was number one and number two on their list of 
reasons. The isolation being one of the others.
    Senator Murkowski. But do you feel as a, still a relatively 
new teacher coming to Alaska, that if we could do a better job 
of addressing the housing situation, we could do a better job 
of retaining our teachers?
    Ms. Davis. Absolutely. As I said, my number one reason when 
I--when and if I choose to leave will be my housing situation 
and cost.
    Senator Murkowski. In the Kotzebue area have there been any 
new housing units for school employees?
    Ms. Davis. No; there are none.
    Senator Murkowski. There are none. Okay, thank you. Mr. 
Simon, in the Yukon-Koyokuk school district, the district 
itself, the district owns the housing units, is that correct?
    Mr. Simon. In 8 of the 9 villages.
    Senator Murkowski. How many units does the district own?
    Mr. Simon. Altogether the district owns 26 housing units 
and leases 2 from community members.
    Senator Murkowski. Okay. And do you have any villages in 
the district that do not have housing for your school 
employees? Situations similar to Kotzebue?
    Mr. Simon. No.
    Senator Murkowski. So in terms of what you would need, in 
terms of actual units that you would need to accommodate your 
teachers in your district, what do you anticipate you would 
need?
    Mr. Simon. At this point I believe we would need 17 new 
houses.
    Senator Murkowski. You would need 17 new houses. And do you 
have any estimate as to what that would cost to construct those 
units?
    Mr. Simon. My best estimate would be around $2 million.
    Senator Murkowski. $2 million. Now, we've heard both Ms. 
Davis and Ms. Cole speak to the turnover rate, you've mentioned 
it yourself, not only the turnover rate among the teachers, but 
the turnover rate of the administrators, and that statistic is 
particularly troubling, I think you mentioned 44 percent of 
your principals moving on.
    Mr. Simon. Yes.
    Senator Murkowski. This is something that we don't talk 
about quite as much as the teachers, but the administrators is 
a huge, huge issue for us as well. And it seems to me that as a 
district you're really stuck with a dilemma. You would either 
put some of your education dollars into your housing so that 
you can keep your teachers, or you put the education money 
where we all think the education money should be and that's 
within the classroom. And you are really stuck with a very, 
very difficult choice. Because if you can't keep your teachers, 
you can't educate your kids. How do you wrestle with this? This 
is a terrible problem to be under.
    Mr. Simon. It's something that we have to deal with, we're 
going to budget again for next year and we have to figure out 
how much we're going to put into teacher housing and we are in 
the--you know, since there's so few teachers going to the 
Alaska Job Fair now-a-days, we have to be able to come to the 
table, to the teachers and say this is what we offer in terms 
of housing, and we know that they're going to be asking 54 
other school districts in the State or this and that 30 about, 
what kind of housing do you provide? What is the rent? So we 
try to provide a cheaper rent and better housing and say yes, 
we have running water. That's just something----
    Senator Murkowski. But you think it's that, that gives you 
the competitive edge over other districts if you can say, I can 
offer you better housing at a lower price that you can get the 
teachers there?
    Mr. Simon. Absolutely. Better housing, lower price, and 
running water.
    Senator Murkowski. And running water. Pretty much the 
basics.
    Mr. Simon. Yes.
    Senator Murkowski. But what percentage, say for instance of 
next year's budget would you say that you've got to spend on 
teacher housing and as a consequence those moneys are not 
available within the classroom itself?
    Mr. Simon. Between 3 and 5 percent, $100,000 to $200,000.
    Senator Murkowski. Okay. I appreciate your comments this 
morning. Let's bring up the next group here.
    I would like to welcome to the table, panel 2, Eric Madsen, 
director of rural program development, school of education, 
University of Alaska, Fairbanks, Frank Hill, the co-director of 
Alaska Rural Systemic Initiatives, a program within the Alaska 
Federation of Natives and former superintendent of the Lake and 
Peninsula Borough School district, and Carl Rose who is the 
executive director of the Association of Alaska School Boards 
who is not with us this morning. His testimony has been 
presented and I am presuming it is at the back of the table. 
Nelson Angapak, who is the executive vice president of Alaska 
Federation of Natives is also with us this morning. Mr. 
Angapak, I understand that you will not be testifying, is that 
correct?
    Mr. Angapak. That's right.
    Senator Murkowski. Okay.
    Mr. Angapak. Mr. Hill will take care of that.
    Senator Murkowski. He'll take care of it, all right.
    We understand that Mr. Rose is out sick this morning, so we 
will forgive him and accept his written comments. I should also 
note that we have received written testimony from Roger 
Sampson, the commissioner of the Alaska Department of Education 
and Early Development, and David Bauer, former principal of 
Savoonga School in the Bering Straits School District. I 
understand that that testimony is also in the back if people 
are interested. We will wait for the cell phone to go off and 
then we'll begin.
    [Prepared statements of Messrs. Rose, Samson, and Bauer 
appear in appendix.]
    Senator Murkowski. All right. Dr. Madsen, thank you for 
joining us this morning.
    Your testimony, please.

      STATEMENT OF ERIC MADSEN, DIRECTOR OF RURAL PROGRAM 
    DEVELOPMENT, SCHOOL OF EDUCATION, UNIVERSITY OF ALASKA, 
                         FAIRBANKS, AK

    Mr. Madsen. Thank you. For the record, my name is Eric 
Madsen. I am the director of Rural Program Development for the 
School of Education, University of Alaska, Fairbanks. My 
comments are based on periods of residency at St. Lawrence 
Island, on the Kuskokwim, and Northwest Arctic, and various 
professional travel working with students going back to 1977. 
Senator Murkowski, thank you for the opportunity to comment on 
S. 1905, the Rural Teacher Housing Act of 2003. These comments 
are predicated on the assumption that while the immediate issue 
before us is habitable living quarters for teachers, 
administrators, and other school staff, our larger goal is 
increasing the academic achievement of the students in the 
eligible communities. Certainly any measure that enhances rural 
Alaska school districts' ability to recruit and retain skilled 
teachers would be helpful toward that larger goal. However, I 
believe that improving teacher housing would be most 
constructive if it were placed in the context of a broader 
initiative. When Alaska was purchased from Russia in 1867, 
schooling for Alaska Native students fell under the prevailing 
assimilationist paradigm which was exemplified in the 1819 
Civilization Fund Act, which had been established specifically 
for the purpose of ``civilizing'' Native American students in 
the Lower 48. That paradigm was extended to Alaska through 
practices such as delegating responsibility for schools in 
Native communities to missionary societies, and through 
policies such as the Nelson Act of 1905, which differentiated 
between students of mixed blood leading ``civilized'' lives and 
white students, on one hand, and students of mixed blood not 
leading ``civilized'' lives and Native students, on the other. 
In 30 years working with rural communities, I have rarely heard 
anyone suggest that teachers from outside those communities are 
not necessary and helpful components of strong, well-rounded 
academic programs. But if our goal is only to make teachers 
from outside rural communities somewhat more physically 
comfortable so that we can extend their tenure by a couple of 
years, I believe we run the risk of being perceived as doing 
little more than perpetuating the assimilationist paradigm to 
yet another generation of rural students, and I know that is 
not the intent of this bill at all. In contrast, linking such 
an initiative to the larger issues would support rural 
communities' efforts to develop the kinds of schools that 
reflect their values and their aspirations. I think there are 
several ways to approach this task. First, while providing 
funds and a funding mechanism to improve housing for rural 
teachers would be a constructive step, it should be implemented 
within a context of improving housing and public facilities in 
rural communities, in general, to the extent those communities 
so desire. Absent this broader context, long-term residents of 
rural communities might reasonably ask why teacher housing 
should be any better, or any more of a priority, than housing 
for those who live there full-time. Second, in order to improve 
the overall quality of students' school experiences and their 
academic achievement, I would suggest directing a portion of 
the available funds toward improving teacher housing, to help 
respond to immediate needs, and a larger portion toward 
assisting long-term residents to become fully certified, highly 
qualified teachers in their home communities which would help 
to address the larger goal. Long-term residents have deep 
understanding of their communities, their schools, and their 
students, and many of them have years of experience in teaching 
and teaching assistance roles. Not incidentally, residents of 
rural communities also have their own housing. As my colleague 
Dean Norris-Tull observed in a conversation about this topic 
last week, supporting rural residents' aspirations to become 
educators in their home communities simultaneously addresses, 
in a very real way, both the housing issues and the larger 
successful school experience issues. There are several forms 
that such assistance might take. The most direct approach would 
be to make academic scholarships available directly to long-
term residents, contingent only upon satisfactory progress 
through a teacher preparation program. A second, and perhaps 
companion, form of support would be to fund release-time from 
work so that students who already serve in teaching assistance 
roles could remain close to their classrooms while completing 
their preparation programs. Third, I would urge you to pursue 
the improvement of teacher housing, but to consider doing so 
within the context of improving rural housing, in general. The 
funding mechanisms to support teachers in training and rural 
housing improvement are already contemplated in S. 1905: that 
is, tribally designated entities and village corporations for 
the scholarships and housing initiatives, and school districts 
for release time funding. S. 1905's intent to provide habitable 
living quarters for rural teachers is a constructive step. 
Teachers play critical roles in the lives of students, and 
teachers who stay in rural communities long enough to become 
participants in community life and to better understand and 
appreciate their students are much more likely to fulfill their 
roles effectively. They deserve, and doubtless would 
appreciate, safe, comfortable, functional housing. That said, 
long-term residents of rural communities also deserve and would 
appreciate safe, comfortable, functional housing. Perhaps more 
to the point, rural students deserve teachers who have deep 
understanding of, and long-term commitment to their 
communities. Certainly this includes the large number of 
teachers who grew up and trained elsewhere, but have found 
rural communities to be personally satisfying and 
professionally rewarding places to live, to work, and to raise 
their families as we've heard today. There are many of them, 
and their personal contributions to rural villages and their 
professional contributions to rural schools are significant and 
certainly must be appreciated. Nevertheless, the roughly 100-
year history of public schooling in Alaska suggests that it is 
most frequently the residents of rural communities who provide 
both the continuity in those schools, and also the orientation 
and the nurturing that help new teachers from outside become 
long-term, contributing participants in those settings. I 
encourage you, Senator Murkowski, to pursue the initiative in 
S. 1905, but to consider doing so within the context of 
improving housing for all of the residents of the eligible 
communities and assisting long-term residents to assume 
professional roles as teachers and administrators in their home 
communities and regions. Thank you for the opportunity to offer 
these comments this morning.
    [Prepared statement of Mr. Madsen appears in appendix.]
    Senator Murkowski. Thank you, Dr. Madsen.
    Mr. Hill, good morning.

 STATEMENT OF FRANK HILL, CO-DIRECTOR OF ALASKA RURAL SYSTEMIC 
INITIATIVES, A PROGRAM WITHIN THE ALASKA FEDERATION OF NATIVES, 
  AND FORMER SUPERINTENDENT OF THE LAKE AND PENINSULA BOROUGH 
SCHOOL DISTRICT, ANCHORAGE, AK, ACCOMPANIED BY NELSON ANGAPAK, 
  Sr., EXECUTIVE VICE PRESIDENT, ALASKA FEDERATION OF NATIVES

    Mr. Hill. Good morning, Senator Murkowski. For the record, 
my name is Frank Hill, I'm co-director, Alaska Rural Systemic 
Initiative; [AKRSI] a project sponsored by Alaska Federation of 
Natives [AFN] for the past 8 years or 9 years, and I've been 
co-director for the past 5 years. As you know, AFN is a 
Statewide Native organization formed in 1966 to represent 
Alaska's 100,000+ Eskimos, Indians, and Aleuts on concerns and 
issues which affect the rights and property interests of the 
Alaska Natives on a statewide basis. I might include that there 
is 34,100 Alaska Natives students in that number. On behalf of 
AFN, it's Board of Directors and membership, thank you for 
inviting us to comment on S. 1905, the Rural Teacher Housing 
Act of 2003. We applaud the efforts of the Honorable Lisa 
Murkowski in resolving the housing conditions for the teachers 
who teach in rural Alaska. My previous experience in Alaska 
education totals 29 years, including classroom math and science 
teacher, education program administrator, and 11 years as 
superintendent. With the exception of 3 years in Anchorage 
Schools, all of my educational experiences were in rural 
Alaska. I sort of went against the norm, I went from urban to 
rural and stayed there, where my home was. Thank you for 
introducing S. 1905. AFN supports this bill for a number of 
reasons, including but not limited to addressing the housing 
needs of teachers in rural Alaska. This bill, if Congress would 
pass it will solve one of the true human needs that exist in 
the education process as it addresses rural Alaska--the housing 
needs of the teachers and the educators in rural Alaska. In 
1999, Julie Kitka, president of AFN, submitted a report to 
Congress entitled AFN Implementation Study. This is a 23-page 
document on proposals to the U.S. Congress to implement 
recommendations of the Alaska Natives Commission pursuant to 
Public Law 104-270. One of the proposals included that study 
addresses issues supporting Alaska Native education. For 
example, one of the findings was the critical need to create 
and implement programs designed to improve the quality of 
education for young Alaska Natives. The Commission found that 
innovative education programs were needed to help reverse the 
deterioration of socioeconomic conditions and the poor 
educational performance of many Alaska Native children, the 
majority of whom attend schools in small and remote traditional 
villages. The Commission also urged that parents and community 
leaders become compelling voices in directing Alaska's formal 
education system; that the education system employ teachers and 
administrators knowledgeable about Native cultures and 
respectful of them; and that Alaska Natives receive an 
integrated education--one that provides them not only with the 
skills to succeed in life, but also the understanding necessary 
to carry on their cultures' community values. We raise these 
points to demonstrate that it is critical to attract teachers 
and educators with qualifications to teach in rural Alaska; and 
it is critical to see that they have incentives to remain in 
rural Alaska. One of those incentives would be quality housing 
as intended by S. 1905 if it is enacted into law. The retention 
of qualified teachers and educators in rural Alaska has a 
definite potential to improve the quality of education received 
by the students attending the schools in rural Alaska 
districts. I believe that improved education by the students 
attending these rural school districts will improve if we end 
up with higher quality through this process. The passage of 
this bill would also have some other benefits as well, 
employment opportunities being one of them. Unemployment in 
rural Alaska ranges on the average, 60 to 80 percent in the 
most villages. The passage of S. 1905 will create employment 
opportunities, at least during the construction of the housing 
units in the villages where it is really needed. Local hire, 
senate bill 1905 should mandate local hire for qualified 
people, both Alaska Native and non-Native, living in the 
villages where the construction of the housing units will take 
place. In this instance, local would mean people living in the 
communities where the teacher housing construction would occur. 
It would also improve in a small way, improvement of local 
economies. Local hire will have a short term improvement of 
local economies where it is really needed. While these 
improvements are short-term, they will be beneficial to those 
communities. In terms of ownership of housing and land, AFN 
strongly recommends that the local village entities, including 
the local village corporation and/or local tribal entity, be 
given the first right of refusal on the ownership of the 
housing units in the villages. The housing units in the 
villages would be leased to the school district under which the 
local school operates. This will ensure that the landlords of 
the housing units are local rather than some distant owner. In 
terms of program policies, on page 9 of the bill, beginning on 
line 19, S. 1905 states that the Alaska Housing Finance 
Corporation, after consulting with eligible school districts, 
shall establish policies governing the administration of grant 
and loan funds made available under this act. AFN strongly 
recommends the inclusion and the participation of local 
entities where the eligible district is located. One of the 
critical elements of the success of the housing units 
envisioned pursuant to S. 1905 is the ``local ownership'' in 
terms of policy of these units. Authorization of 
appropriations: during a recent discussion with a knowledgeable 
school administrator, it was estimated that at least $100 
million would be needed annually to address the teacher housing 
needs in rural Alaska.
    AFN recommends that Congress considers actual 
appropriations of at least $100 millions annually to implement 
the intent of this bill through the life of this authorization. 
With public schooling being in Alaska for over 100 years, there 
are many, many challenges facing educators in trying to deliver 
a quality program for Alaska's rural schools and native 
students that primarily live there. Among them, of course, is 
the high level of teacher turnover, not just from year to year, 
but, as pointed out earlier today by Mr. Simon, that it's 
sometimes within the school year. This disruption of the 
instructional process has been shown to be associated with 
negative effects on student achievement--academic achievement 
and performance. This high level of teacher turnover is 
primarily a rural school problem. Alaska's largest urban 
districts have historic annual turnover rates between 6 and 14 
percent comparable to--and that's comparable to the national 
average. All Alaska school districts with turnover rates over 
30 percent or more are rural districts far from the main road 
system. A study entitled ``Retaining Quality Teachers for 
Alaska'', by William McDermitt, UAA/ISER, 2000, demonstrated 
that a primary reason for teacher turnover is the lack of 
adequate or quality housing for teachers. Schools are required 
to use precious instructional funding to recruit and hire 
teachers year after year. This is an issue only rural schools 
face.
    In order to attract and retain quality teachers for rural 
schools, many rural school districts provide housing for their 
teachers. 11 rural school districts subsidize the cost of 
housing if district housing is not available as you have heard 
from the two educators earlier. The School Board Association 
does a survey every year and that's where that documentation 
comes from. Recently, a rural school Superintendent told me 
that 8 cents of every school district dollar budgeted was to 
provide and maintain teacher housing. Yet again, this is an 
expense only Alaska's rural schools must deal with.
    While a District Superintendent, I interviewed hundreds of 
prospective teachers in my 11 years as superintendent and 
previously as one of the key recruiters for teachers in rural 
schools. I interviewed lots and lots of teachers. One of the 
first questions they asked, as was pointed out, is what kind of 
housing will I have before they asked about salary, before they 
asked about how far is it to Anchorage, they always asked about 
housing and then does it actually have a flush toilet and a 
light switch that will turn the lights on?
    At Lake and Pen I used to think that we were attractive as 
a rural district because we had such a great program, but I 
think it also was somewhat a result of our efforts to maintain 
and keep real good housing for our teachers, knowing that that 
was a critical element in their retention. The funding proposed 
by S. 1905 will be a welcome relief for rural schools. If 
successful, the funding could effectively increase the funds 
spent on instruction, and could lead to improvement in 
instruction, and better student achievement. We could be--with 
this funding we could begin to reduce the high teacher turnover 
rate in rural Alaska schools, thereby decreasing the costs of 
annually recruiting new teachers.
    Again, these funds that we saved could be used in the 
instructional program. We congratulate you, Senator Murkowski 
and the entire Senate Committee on Indian Affairs for 
developing and sponsoring this bill. By removing the issue of 
teacher housing for rural Alaska's schools as an issue that 
negatively impacts student achievement, schools would be able 
to do a better job of providing a quality education. Thank you 
for this opportunity to testify.
    [Prepared statement of Mr. Hill appears in appendix.]
    Senator Murkowski. Thank you. Thank you, both. Let's see--
let's go to you, Dr. Madsen. I appreciate the attention you've 
given to not just the rural teacher housing. Obviously, the 
focus of this hearing and my legislation is on that one 
component as we look at how we deliver the best education 
possible to our kids in our rural areas and recognize without 
the teachers there to deliver the education, it's very 
difficult to do a good job. And if it's the housing issue that 
is the big bone of contention, as it certainly appears from 
what we've heard this morning, how can we deal with it. But I 
appreciate your concern that we are just looking at one 
component of the problem out in rural Alaska.
    I have been very involved with housing legislation in the 
Senate and have signed on and helped move a couple housing 
initiatives just this past year that will help with low income 
loans to individuals, first time buyers. We had the dream home 
initiative was one of them. We were also involved with the 
latest one that just moved through which was the home program 
funds, disbursed to State and local governments to assist with 
expansion of housing for low income families, so there is a 
recognition that we need to do more, and I appreciate your 
highlighting that in your testimony, and I want you to know 
that I agree with you. We've got a long way to go on these 
issues.
    As I have gone out to many of the communities, we're 
looking at the new clinics that are being built in so many of 
our rural villages through the AME assistance of the Denali 
Commission, but we recognize that in order to get the health 
professionals that we need, they also need adequate housing. 
And your point that we want to encourage those people who have 
lived in these communities that have been born and raised 
there, we want to encourage them to stay, and how can we assist 
them with their housing needs as well? It is a huge issue for 
us to tackle in rural Alaska. And I think those of us that have 
been out there, Mr. Hill you've been teaching out there for 29 
years in various parts of rural Alaska, we recognize that this 
is not just something that is directed to teachers. So we 
have--we've got a long ways to go. I think you and I are in 
agreement on what it is that we have to do. I guess my 
legislation is one small step in one area. But, again, I do 
appreciate you bringing those to my attention.
    You indicate support in your testimony, maybe not support, 
but you suggested that as we try to provide incentives for 
those that have been in the communities for long periods of 
time, that perhaps some form of scholarship assistance might be 
something to pursue. This is far afield of our legislation 
today, but it's something that I know when we're talking about 
student loan forgivenesses for our teachers and our nurses in 
order to encourage them to remain in our communities, that's 
certainly one area that we've looked, but do you think that 
this scholarship assistance might be one way that we can 
address the problems that you've pointed out?
    Mr. Madsen. Yes; very definitely. Context matters so that 
we as policymakers and school people need to pay attention to 
the context in which our efforts work. And this is actually a 
constructive step, and I hope I was clear about that.
    Senator Murkowski. Yeah.
    Mr. Madsen. And I think that you summarized well the 
surrounding issues, and I would certainly be supportive of any 
efforts to try to address the larger issues of housing for the 
communities in general, and for the long-term interests of 
trying to assist people in those communities to become 
professionals, both health care professionals, and education 
professionals. I think that's where the long-term future looks 
brightest.
    Senator Murkowski. I agree. I appreciate you bringing them 
up. I think your points are extremely well taken.
    Mr. Hill, I want to talk to you a little bit about your 
experience 29 years in various schools in various communities. 
You say 11 years as a superintendent, 29 years in the classroom 
in various communities.
    Mr. Hill. I'm sorry, maybe I didn't word that right. My 11 
years was included in the 29.
    Senator Murkowski. Okay.
    Mr. Hill. Okay.
    Senator Murkowski. Well, you still spent along time out in 
various rural communities. You heard the testimony of the two 
teachers that we had here, Mr. Simon is a superintendent, in 
your experience with teacher housing over the years in parts of 
rural Alaska that you resided in, is your story very similar to 
what we heard from the teachers and superintendent?
    Mr. Hill. Sure. Being--I think the anxiety the teachers 
have and just the worry alone about what am I going home to 
after the classroom is certainly distracting to the quality of 
education. I don't know how you could be a human being without 
that. My experience was primarily on the Alaska peninsula and 
the Bristol Bay region. And I've visited lots and lots of 
teacher housing units.
    There was some advantage in being very close to the water-
borne transportation system where the costs probably were a 
little bit less to deliver construction materials, but there 
are still places where in conditions of low water you had to 
helicopter and fly fuel into communities to just keep the 
schools and the housing units warm. That's for everyone in that 
community. So those conditions do exist and I wouldn't say that 
any of them, they were probably being polite by not--maybe it 
sounded exaggerating at some point, but it's certainly not in 
my experience.
    Senator Murkowski. You have indicated, and I appreciate the 
way that you've laid it out in your testimony, you've indicated 
that our rural schools here in Alaska face different 
challenges, different costs than anything that we might 
experience here in the urban part of the state, or similar 
situations in the Lower 48, that our rural schools have 
expenses that nobody else has, that you've got to incorporate 
those into your budget. You've indicated, again, when we talk 
about it, a teacher and administrative turnover rate of 30 
percent a year and administrator turnover rate of 44 percent a 
year, that you as a district then have to spend additional time 
and money in recruiting teachers that we might not experience 
here in Anchorage, which is something again that I don't think 
we stop to think about how much time, energy, and money you 
spend in that recruitment process.
    Mr. Hill. That's true. As an example, last year I checked 
with the Anchorage School District and they had a waiting list 
of 600 teachers wanting a job here.
    Senator Murkowski. And what was your situation out in Lake 
Pen district?
    Mr. Hill. We couldn't--I don't think we would have had 
anywhere near 800. We--we'd have been surprised if we had two 
or three looking to work with us, and they may have been 
transfers from neighboring districts, but we've never had a--I 
don't recall in all the years that I've worked in rural 
districts that someone's going to put me on your list for next 
year. So I think there are many advantages to urban districts 
over rural in this case.
    Senator Murkowski. Well, you've got the extra time and 
energy, money that needs to go into the recruitment, then 
you're looking at spending instructional dollars in order to 
provide some form of housing, whether it's housing subsidy or 
whether it is--you've got to do something to entice these 
teachers to come to your district. As Superintendent Simon 
mentioned, there a competition amongst the districts to attract 
the teachers, and it sounds, from his testimony anyway, that 
decent housing with a flush toilet is going to be one of those 
criteria that will cause the teacher to go with that district 
as opposed to this district. So again, as a rural area you have 
a cost that an urban area simply would not have to deal with.
    Mr. Hill. Exactly.
    Senator Murkowski. Now, in the Lake Pen district, did the 
district provide housing or were the teachers and the staff on 
their own?
    Mr. Hill. In one or two teacher sites primarily the 
teachers were required to live in district-provided housing. 
They--the local administrator--they were--it was not free of 
charge. They were paying a rent and a schedule was worked out 
with the local bargaining unit to do that. However, it was 
subsidized. We were lucky enough to become a borough--actually 
that was my first job as superintendent was to help REA become 
a borough, and in that process we transferred the ownership of 
the housing unit to the borough.
    That helped us get away from this one requirement from the 
State where we had to spend 70 percent of the State funds on 
instruction. There's a 70/30 rule. You cannot spend more than 
30 percent of your State dollars on other than instruction. 
Your bill would certainly give the opportunity to take that 
piece of that budget off that 70--the wrong side of 70/30 and 
help those districts which I think--I don't recall, but there's 
at least 1 dozen every year and they're all rural, primarily, 
who have to get a waiver from the Department of Education to 
address this issue.
    Senator Murkowski. And if--if in fact--let's assume that 
this legislation doesn't move forward just for conversation 
sake here, but if you've got a situation where you've got an 
essentially the State mandate that says, you know, you've got 
this cap here and it has to go for instructional costs, and the 
districts are limited in their ability to do anything with 
housing, not able to get the teachers or not able to keep the 
teachers more likely, we've got this kind of a downward spiral 
in terms of the quality of education that we can deliver out 
there.
    I don't mean to be overly pessimistic, but if we can't--if 
we can't provide some kind of housing out there that has 
minimal standards, how do you keep your teachers? You tell me a 
little bit about how you did this recruitment process because 
you indicated that you were involved with that for some time. 
How much does that factor into the prospective teacher's 
decision?
    Mr. Hill. A lot. In fact, we found it wise after a couple 
of years instead of just telling them about it, we actually 
made some video and showed pictures of the housing units that 
were available in the community so that people could see oh, 
there's a bed, there's a toilet that flushes, that kind of 
thing. So in order--and not to say that we would mislead 
teachers, but I could see that after a period of time if you'd 
been working in situations where housing was a big problem, you 
would want to see actual proof.
    Mind you, most of the recruiting is taking place right here 
in Anchorage. And the first time they see any of the places 
they're going to live is when they first show up on the first 
day of the job. I don't believe any rural districts can afford 
to fly the people out to get a look at their housing units 
prior to making the decision to go there. So there's lots of 
issues related to that, that are that critical. I've had--we've 
made offers to teachers, you know, saying you're the person we 
want for this instructional team in Chignik Lagoon and they 
walk around that contract offer shopping housing next because 
they already have a contract. I don't blame them. I think that 
that's realistic.
    I recall in one community mentoring a very bright young 
couple in a two-teacher school and there was a very, very small 
apartment, and I didn't realize that they--they never let us 
know--that they left their two children behind, and they--in 
the beginning of the school year in the housing that they were 
in that we provided was very, very small. They were looking for 
ways at Christmas to bring their family up and--because it just 
didn't make sense for them to be away from their two children 
for the period of time they were going to be in Alaska. I think 
they were from Washington state somewhere.
    Senator Murkowski. Do you recall how old their children 
were?
    Mr. Hill. Pre-teen.
    Senator Murkowski. Pre-teen.
    Mr. Hill. Yes; Because there was no high school in that 
community; they were wondering basically if they could teach 
their own kids. That was the first question they asked. So they 
thought it would be better for them to be in the school they 
were in. But anyway, they negotiated with me to move out of the 
small apartment that we had to one where a local person invited 
them to live because the community really valued those teachers 
and wanted them to stay, even after 6 months. This was a place 
where they had teachers sometimes leave. We had two changeovers 
in that same village in 1 year previously. So it was really a 
revelation to us to have a community member offer their house 
and it was a nice house for them to even stay. So housing was a 
big issue just from the issue of having a real family.
    For something else that hasn't been said here, but 
typically district housing is not occupied during the summer, 
and there's probably good reason for some, if you do any 
maintenance, that's the time to do it. There's an opportunity 
to do that. But I recall how shocking it was to my school board 
once when we had three different families who had three or four 
children each who actually asked to stay in teacher housing 
year-round. We didn't even have a policy for that. All of our 
rental units for agreement were for 10 months and 9 months.
    So to have something where they felt really comfortable, 
and this is our home and we don't want to leave, we'd have to 
go pay rent somewhere else, so they were already secured in 
their housing. They didn't want somebody else to get it so they 
stayed in it year-round, basically is what it boiled down to, 
they didn't want somebody to come in and find somebody else 
living in the house that they had, so they asked to stay year-
round.
    Senator Murkowski. Is it fair to suggest then that because 
housing is such an issue and such an unknown in certain areas, 
to listen to Ms. Davis's testimony about having to essentially 
make arrangements with two strangers, two males unknown she was 
going to share a house with for the next year, is it fair to 
say that we're not seeing families come up to teach because of 
the shortage? You might be able to find one room, but to find a 
place for you and your family.
    I know when I met the principal at Savoonga, the one that 
was living in the broom closet, his wife refused to move to 
Savoonga because there was no place for her, and she wasn't 
about to stay at the school. Is this what we're seeing? We're 
able to attract the young people fresh out of school who are 
willing to come to Alaska for a bit of an adventure and can 
deal with less than optimal housing, but we're not able to 
attract the older, more established teacher who might have a 
family?
    Mr. Hill. That's certainly true. There are exceptions, of 
course. People who find a situation where adequate housing is--
to bring their families, sometimes they won't learn that until 
they've been there 1 or 2 years and can figure out the 
community and which community they'd like to be in and which--
you know, where their family would be comfortable. So I would 
say that it's probably after--at least after the first year 
before they make that determination, but typically districts 
can't, as hard as it is to develop housing just for the 
classroom teachers, to provide housing for families included 
would be even more expensive. So that's--maybe it's really a 
function of cost.
    Senator Murkowski. This goes back to Dr. Madsen's concern 
that what we want to do, we don't want teachers to just kind of 
swing by, teach for a couple of years and then move on out, we 
don't want to be the training ground for these teachers, we 
want them to bring their families here. We want them to raise 
their families here and be part of this community. And if you 
don't have the facilities for them to feel that they are part 
of that community or those that have been around for a long 
time, we want to figure out the way to keep them here along 
with their families.
    Mr. Hill. Along with that, I'd like to support his concept 
of growing our own. I think that's very important. I know 
there's at least three initiatives ongoing now to do that, but 
there's only less than 5 percent per teaching staff, Alaska 
Native or rural or residents who live in rural Alaska are 
teachers. That number has not changed in 30 years. If you are 
going to get up to the percentage of Alaska Native students in 
the State which is just under 24 percent, we have a long ways 
to go, there's probably 1,500 to 1,800 teachers that have to be 
grown, and that would certainly to go a long ways toward 
solving the turnover, provided they all meet the qualifications 
that we're looking for.
    Senator Murkowski. Is there any data--recent data--that we 
collect on the status of teacher housing across the State? I'm 
sure within the respective districts there is, but do we have a 
compilation at the State level?
    Mr. Hill. I thought such existed. But just last week I 
checked with the Department of Education and the School Board 
Association and their annual housing--the teachers salary and 
benefits surgery, and the only thing that they have is what 
districts subsidize housing. That was again, I pointed out 11 
districts subside housing somewhere. I in fact spoke with 
someone at the Denali Commission who was dealing with the 
funding proposal that you had just indicated earlier about 
working with teacher housing issues and she assumed the same 
thing and found that the first their they have to do is fund a 
study to find out the condition of teacher housing around the 
state. So that's probably a good first step is to find where 
the needs are greatest. I really think it ought to be also a 
priority for housing and development authority, first go to 
those districts who have the greatest need, not just in terms 
of lack of housing, but also looking at the academic 
performance of kids to tie those two things together.
    Senator Murkowski. But so far as you're aware, we don't 
have that data yet?
    Mr. Hill. No.
    Senator Murkowski. So we're not in a position to do any 
prioritization?
    Mr. Hill. Not that I'm aware of.
    Senator Murkowski. I think we are just now starting to 
really shine the spotlight on this issue and as we look to how 
our children are doing from district to district and 
recognizing we've got a lot of work to do out in the rural 
areas, we look at it and say what is the issue here, what is 
the problem? When you come down to the statistics that reveal 
in district after district these incredibly high teacher 
turnover rates, you've got to look further and see what 
contributing factors are there.
    Mr. Hill. Excuse me, I recall one other issue that many 
teachers told me they were leaving because they wanted to move 
to a place where they could actually invest in and start 
building a home of their own. In most cases in rural Alaska 
there's not a chance to spend that very high rent money on 
developing the ownership of your own home. So, typically young 
people, beginning professionals, are starting to look at that 
as a way to develop a life and to have the opportunity to start 
investing in their own home rather than paying rent. Which is 
the case, I'm sure, of a lot of long-term Anchorage teachers 
owning their own home and living in their own homes. There's--
that's not the case in many rural districts at all. I'd be 
surprised if many owned their own homes at all unless they 
bought a piece of land way out somewhere.
    Senator Murkowski. And then you throw in the concerns that 
we heard earlier just in terms of the cost of building, the 
very high cost of transportation, equipment, it's almost 
prohibitive in certain areas. And if you don't know that you're 
going to be there beyond a year, it's pretty tough to make that 
commitment.
    Mr. Hill. Exactly.
    Senator Murkowski. What other, in terms of ways that rural 
schools or districts have to provide for adequate teacher 
housing--we have--we've talked about the districts basically 
making that budgetary decision that they may have to use 
instructional dollars to do this, but what other means at the 
state level are available for districts or for----
    Mr. Hill. Not many except in the case where you might have 
a construction project, as was indicated earlier, and there's 
an opportunity to spend some of your construction moneys, not 
necessarily directly on teacher housing but to take that 
opportunity of transporting materials along with the school 
construction materials to do that. There's some limited 
opportunity that way. That's only in cases of very high 
priority capital projects that State funds on an annual basis. 
It's highly competitive. I sat on that State committee that set 
their priorities for, I think it was 6 years, and in those 6 
years I don't recall any urban district ever having the highest 
priority in terms of life, health, and safety, but teacher 
housing is not on that list.
    Senator Murkowski. Right.
    Mr. Hill. You cannot spend money on teacher housing 
without--with State dollars. So, it's a very limited 
opportunity except in some cases I'm sure there's some local 
entrepreneurial people who have their own land who could 
develop and see an opportunity to rent to teachers on an annual 
basis, but that's very----
    Senator Murkowski. Well, gentlemen, I appreciate your 
testimony this morning. As I've indicated. Mr. Rose's testimony 
is on the back table as well as the additional submitted 
testimony that we have received from the Commissioner of the 
Department of Education and the former principal of the 
Savoonga School. I would again invite any of you who are 
interested to submit additional testimony. The record will 
remain open for 2 weeks.
    The committee aide for the Committee on Indian Affairs will 
make sure that you get the information on where to send the 
testimony, but you can always send it to my office in 
Washington DC and we will make sure that it gets filed with the 
committee. But I want to thank those that provided the 
testimony this morning, those that came to listen from the 
various perspectives. I see some folks with AHFC, with HUD, 
people that are just very interested in seeing how we can make 
a difference.
    I think there's a few very key points that we have learned 
from all of our witnesses this morning, and that is that 
teacher housing is a critical component in recruiting and 
retaining quality teachers in Alaska. And if we don't have the 
teachers in our rural communities, we cannot expect good 
performance for our students. This is something that is 
imperative that we deal with if we want to make sure that our 
kids in the rural parts of the state get the best possible 
education, and we certainly owe it to them to give them that. 
We want to work toward that end.
    When we look at those expenses, those costs that these 
rural schools and school districts assume, that no other 
schools or school districts really have to take on in terms of 
using your instructional money for teacher housing in order to 
keep your teachers there, that's a balancing act, that's a 
choice that we really don't want to put our schools and our 
districts in. We want to know that the money is getting into 
the classrooms so that we're really helping those kids.
    So we've got a big project ahead of us. We will be 
hopefully moving this legislation through the process on the 
Senate side and working on various other initiatives to see 
what we can do to make housing more available in all parts of 
rural Alaska. We're starting with the teachers, but that 
doesn't mean that we don't also focus on the other areas of 
need throughout the state when it comes to housing. So, I 
appreciate the time from all of you this morning. Thank you, 
and good day. With that we are adjourned.
    [Whereupon, at 12 noon, the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Dave Bauer, Principal of the Savoonga School, 
                     Bering Strait School District

    While principal at Savoonga, I lived at the school in a closet, 
with a chair and table, to be able to provide enough beds and rooms for 
my teaching staff. The next year, I had to have two male teachers share 
a house where one of them had to walk through the other's bedroom to 
use the bathroom.
    This year I have better housing, however, I still had to replace a 
heating unit and a stove to make it adequate. I will be losing at least 
two teachers at the end of the year because of inadequate housing.
                                 ______
                                 

 Prepared Statement of Joe Cladouhos President/CEO Norton Sound Health 
                              Corporation

    S. 1905 ``To provide habitable living quarters for teachers, 
administrators, Other school staff, and their households in rural areas 
of Alaska located in or near Alaska Native Villages.''
    On behalf of the Norton Sound Health Corporation Board of Directors 
and staff, I support the intent of S. 1905 and would appreciate the 
sponsor's consideration to amend the bill to include staff housing for 
physician assistants based in Alaska Native communities and housing for 
itinerants that frequently travel to provide specialized health care to 
patients in rural Alaskan communities.
    A non-profit consortium of 20 tribes, NSHC was one of the first 
Native health organizations in the country to assume complete 
responsibility for all health services in the region. NSHC was founded 
in 1970. The board of directors is comprised of consumers chosen by the 
20 tribal governments in the region.
    NSHC operates Norton Sound Regional Hospital in Nome, the hub city 
of the region with a population of 3,448 residents. NSHC also operates 
health clinics in 15 Native Alaskan villages scattered on the coast and 
island of the Bering Sea, all covering the size of State of Ohio. Of 
the 15 villages, all have mid-level practitioners [Physician Assistants 
or Nurse Practitioners] assigned for at least part-time coverage. Seven 
villages are designated as the primary residence of Mid-level 
Practitioners [MLPs]. Lack of available housing is evident in all 15 
villages.
    Itinerant clinicians also provide specialized health care services 
such as eye care, dental, WIC, audiology, Maternal and Children's 
Health Care, and many other medically related services. These health 
care workers usually stay in the health clinic while in the villages. 
This arrangement causes some crowding in the facility, creates 
confusion during emergencies, diminishes the comfort and privacy of 
travelers and overloads busy clinics.
    A solution to this problem like the teaching housing situation 
would be to build new staff and itinerant structured with a separate 
area for itinerants, ideally a two-bedroom with an attached small 
apartment.
    Due to lack of adequate housing for mid-levels and itinerant health 
care providers, patients in the surrounding villages do not receive the 
quality care they need and deserve. Mid-levels want to live in a 
village to provide care but they do not have the opportunity due to 
lack of housing. Itinerants would visit more villages and stay longer 
in each village, but are forced to cut their visits short due lack of 
housing.
    NSHC is committed to ensure each patient in our region receive the 
best health care they deserve no matter where they live, but we are 
seriously constrained by the housing crisis and cannot place mid-levels 
in villages without a suitable place to live. Please consider amending 
S. 1905 to include the provision of habitable living quarters for mid-
levels and itinerant health care professionals in Alaska Native 
communities.
                                 ______
                                 

Prepared Statement of Robert J. Clark, President/CEO, Bristol Bay Area 
 Health Corporation, Executive Committee, Alaska Native Health Board, 
                 Alaska Native Tribal Health Consortium

    On behalf of the 34 tribes that form the Bristol Bay Area Health 
Corporation, we support your bill ``to provide hospitable living 
quarters, administrators, other school staff, and their households in 
rural areas of Alaska located in or near Alaska Native Villages''.
    We ask for an amendment to ``include staff housing for Mid-Level 
Practioners [Physician Assistants and Nurse Practioners] based in 
Alaska Native Communities and housing for itinerants that frequently 
travel to provide specialized health care to patients in rural Alaskan 
communities''.
    The testimony of Mr. Joe Cladouhos, President/CEO of the Norton 
Sound Health Corporation on S. 1905 while speaking for his 20 tribes in 
North West Alaska and their needs, could just as easily be the 
testimony of all our 12 regions that have similar needs.
    Our Alaska health care system relies on Sub Regional Clinics, 
whatever they be HRSA, 330 Clinics, Frontier Clinics, or other 
similarly funded clinics, however with the national Mid Level shortage 
of positions, we are hampered by adequate reasonable cost housing for 
these positions in our villages leaving care to less then adequate 
itinerant coverage.
    Thank you for considering this need and sharing this with our 
Congressional Delegation.
                                 ______
                                 

   Prepared Statement of Peggy A. Cole, Teacher, Lower Yukon School 
                                District

    Good morning, my name is Peggy Cole and I am a teacher in the Lower 
Yukon School District [LYSD], located in western Alaska. LYSD consists 
of 11 sites spread along the Yukon River and the Bering seacoast 
covering approximately 22,000 square miles. There are about 2,000 
students, 99 percent of which are Yupik Eskimo. I have taught in LYSD 
for 12 years and have lived in teacher housing during that time. My 
family and I have lived in 3 villages in our school district. At each 
site, we have lived in BIA housing units, which are 50 or more years 
old. These houses had many problems and were in need of costly repairs.
    There are virtually no houses available to rent in the villages, 
and what is available, would be considered substandard by most 
teachers. Therefore, the school district rents the houses to the 
teachers, who are required to live in District housing as part of their 
contract. The school district picks up the cost of water, sewer, 
electricity, and maintenance. According to the District, the high cost 
of these utilities leaves little revenue for maintenance on the 
housing.
    The cost of living in rural Alaska is very high compared to 
Anchorage. Here is a simple example, milk costs about $3.50 in 
Anchorage, it costs $8.98 in Emmonak and it is not even available in 
many villages. Supplies of all types must be flown into the village 
during the year, or barged in during the summer months. There are no 
roads connecting western Alaska to a hub where supplies can be 
purchased and delivered in a cheaper manner.
    While working in this school district, I have had the opportunity 
to visit many of the 104 teacher housing units throughout the district. 
Most of them were in fair to poor condition. only 8 new, teacher 
housing units have been constructed in the past 12 years in our 
district. During the summer of 1996, as a cost saving measure, the 
District purchased 3 mobile homes and barged them to Hooper Bay to act 
as teacher housing. That did not work at all. They were cold and 
drafty; the walls cracked and there were problems with the water/sewer 
lines.
    The school district wants to keep the rent at a reasonable price in 
order to attract and retain quality teachers to provide stability in 
the classrooms, but building new houses in rural Alaska is extremely 
costly. As a ``Band-Aid'' to the problem, LYSD spent over $1 million 
from their CIP fund to upgrade the existing housing throughout the 
District last summer. These upgrades have helped to make the houses 
look more pleasing to the eye, but have not solved the problems with 
structural, electrical, water/sewer issues or age of the units.
    At some sites, single teachers are required to live together 
because of the scarcity of adequate housing units. This does not 
promote stability of teaching staffs at some schools, because many 
teachers do not want to live with a total stranger.
    With the added stress to the budget of the new NCLB law, the 
increase to PERS/TRS and the increasing cost of insurance, there is no 
money available in our district to do any more upgrades on teacher 
housing.
    S. 1905, Rural Teacher Housing Act of 2003, which Senator Murkowski 
is sponsoring, would make moneys available to these rural districts, 
like LYSD. This money would allow our district to build new teacher 
housing units, which would help to entice teachers to come to rural 
Alaska to work. The passage of this bill would also allow the district 
to get the needed money to bring all of our housing units up to the 
rigid standards of today's world. I strongly encourage you to support 
Senator Murkowski in her efforts to get S. 1905 passed.
                                 ______
                                 

  Prepared Statement of Jennifer Davis, Technology Trainer, Northwest 
                     Arctic Borough School District

    I have lived in Kotzebue, AK for the past 5 years and work as an 
itinerant technology trainer in the 11 villages of Northwest Arctic. 
There is no school district provided housing in Kotzebue. We must 
locate our own housing in the community and then pay extremely high 
costs for what many consider to be substandard conditions. I live in a 
250 square foot apartment that costs $1,050 a month. I feel lucky that 
I was able to find an apartment that is clean and in good repair. There 
is a shortage of housing in Kotzebue that makes it difficult to find 
adequate housing. Many people who move here take anything they can find 
available, sight unseen. They often arrive to find the apartment or 
house they have rented filthy and in need of work to make repairs but 
they cannot move elsewhere because there isn't anything else. When I 
moved to Kotzebue, I rented my first apartment over the phone and 
arrived to find the furnished apartment very dirty, lacking furniture, 
and sinking into the permafrost on one side. I cleaned the apartment as 
best I could, sealed a broken window with plywood and made my new home 
as comfortable as possible but I did not feel like Kotzebue would be my 
home for long. Luckily, I found another apartment just before the end 
of my first school year that even though small is comfortable and 
clean. My only complaint now is the excessive cost of housing in 
Kotzebue. I would like to move into a larger place but cannot afford to 
do so. My current rent is about a third of my salary each month.
    My job takes me to each of the villages surrounding Kotzebue where 
I stay with other teachers while I am there. There is some district 
owned teacher housing in each of the 10 villages. The quality of this 
housing varies greatly from village to village. Buckland, Kivalina, 
Noatak, Noorvik, and Shungnak have school district housing for all 
teachers but many are living with roommates when they would prefer not 
to if more housing were available. In Ambler, Deening, Kiana, Kobuk, 
and Selawik there is school district housing for the school 
administrator and some of the teachers. The district leases housing 
from the community if there is not enough district housing. In the 
villages that will allow it, some of the teachers have purchased or 
built their own homes. Some of the housing does not have plumbing and 
many of the units are badly in need of renovations and repairs. Some 
teachers have reported unsafe conditions in or around their apartments. 
We had a teacher injured from a fall due to a leak in her ceiling that 
has been there for over a year and not been repaired. Some of our 
teachers haul their own water and oil for their houses and a few are 
still dealing with honey-buckets.
    The Rural Teacher Housing Act of 2003 would help the district in 
attracting and retaining quality educators. We currently have about a 
30-percent turnover each year and housing conditions and cost are a 
large part of the reason people leave. Each year, as I think about 
signing my contract and create a list of positives and negatives, 
housing is the only thing in the negative column for me. This act would 
make it possible for the district to build and provide housing for 
Kotzebue educators, which would allow more people to feel able to make 
it their home. Our villages need more housing to be built and for 
serious renovations to be made. Many educators move to Northwest Arctic 
with the intent of making it their home but if they do not have 
adequate, comfortable, affordable housing they will not stay. The high 
teacher turnover that we currently have is hard on the children in the 
region and I think anything we can do to improve teacher retention will 
benefit our kids.

 Prepared Statement of Frank Hill, Co-Director, Alaska Rural Systemic 
                Initiative Alaska Federations of Natives

    Good morning, Chairman Murkowski, and other honorable members of 
the U.S. Senate Committee on Indian Affairs, ladies and gentlemen:
    For the record, my name is Frank Hill, Co-Director, Alaska Rural 
Systemic Initiative; [AKRSI] a project sponsored by Alaska Federation 
of Natives [AFN]. As the Honorable Lisa Murkowski knows, AFN is a 
statewide Native organization formed in 1966 to represent Alaska's 
100,000+ Eskimos, Indians and Aleuts on concerns and issues which 
affect the rights and property interests of the Alaska Natives on a 
statewide basis.
    On behalf of AFN, it's Board of Directors and membership, thank you 
very much for inviting me to submit my comments regarding S. 1905, the 
Rural Teacher Housing Act of 2003. We applaud the efforts of the 
Honorable Lisa Murkowski in resolving the housing conditions for the 
teachers who teach in rural Alaska.
    I ask that this written statement and my oral comments be 
incorporated into the record of this public hearing. I further request 
that the record of this hearing remain open for at least 2 weeks so 
that representatives of the Alaska Native Community may submit their 
comments regarding these bills as well.
    My previous experience in Alaska education totals 29 years, 
including classroom math and science teacher, education program 
administrator, and 11 years as Superintendent. With the exception of 3 
years in Anchorage Schools, all of my educational experiences were in 
rural Alaska schools.
    Comments on S. 1905
    Thank you for introduction of S. 1905; AFN supports this bill for a 
number of reasons, including but not limited to addressing the housing 
needs of teachers in rural Alaska. This bill, if Congress would pass it 
will solve one of the true human needs that exist in the education 
process as it addresses rural Alaska--the housing needs of the teachers 
and the educators in rural Alaska.
    In 1999, Julie Kitka, president of the Alaska Federation of 
Natives, submitted a report to Congress entitled AFN IMPLEMENTATION 
STUDY. This is a 23-page document on Proposals to the U.S. Congress to 
implement recommendations of the Alaska Natives Commission pursuant to 
Public Law 104-270. One of the proposals included in the AFN 
IMPLEMENTATION STUDY addresses issues on SUPPORTING ALASKA NATIVE 
EDUCATION. For example, one of the key findings of the Alaska Natives 
Commission's Final Report to Congress was the critical need to create 
and implement programs designed to improve the quality of education for 
young Alaska Natives.
    The Commission found that innovative education programs were needed 
to help reverse the deterioration of socio-economic conditions and the 
poor educational performance of many Alaska Native children, the 
majority of whom attend schools in small and remote traditional Native 
villages.
    The Commission also urged that parents and community leaders become 
compelling voices in directing Alaska's formal education system; that 
the education system employ teachers and administrators knowledgeable 
about Native cultures and respectful of them; and that Alaska Natives 
receive an integrated education-one that provides them not only with 
the skills to succeed in life, but also the understanding necessary to 
carry on their cultures' community values.
    I raised these two points, in part, to demonstrate that it is 
critical to attract teachers and educators with qualifications to rural 
Alaska; and it is critical to see that they have incentives to remain 
in rural Alaska. One of those incentives would be quality housing as 
intended by S. 1905 if it is enacted into law.
    The retention of qualified teachers and educators in rural Alaska 
has a definite potential of improving the quality of education received 
by the students attending the schools in rural Alaska school districts, 
I believe. Improved education by the students attending rural school 
districts will improve the chances of such students to obtain higher 
education-either college or technical with greater success.
    The passage of S. 1905 will have the following ancillary benefits 
as well:

        1. Employment Opportunities: Unemployment in rural Alaska 
        ranges on the average, 60 to 80 percent in the villages. The 
        passage of S. 1905 will create employment opportunities, at 
        least during the construction of the housing units is concerned 
        where it is really needed.
        2. Local Hire: S. 1905 should mandate local hire of qualified 
        people, both Alaska Native and non-Native, living in the 
        villages where the construction of the housing units will take 
        place. In this instance, local would mean people living in the 
        communities where the teacher housing construction would occur.
        3. Improvement of Local Economies: Local hire will have a short 
        term improvement of local economies where it is really needed; 
        and while these improvements may be short term, they will be 
        beneficial to those communities.
        4. Ownership of Housing and Land: AFN strongly recommends that 
        the local village entities, including the local village 
        corporation and/or local tribal entity, be given the first 
        right of refusal on the ownership of the housing units in the 
        villages. The housing units in the villages would be leased by 
        the school district under which the local school operates. This 
        will ensure that the landlords of the housing units are local 
        rather than some distant owner.
        5. Program Policies: On page 9, beginning on line 19, S. 1905 
        states that the Alaska Housing Finance Corporation, after 
        consulting with eligible school districts, shall establish 
        policies governing the administration of grant and loan funds 
        made available under this Act. AFN strongly recommends the 
        inclusion and the participation of local entities where the 
        eligible district is located. One of the critical elements of 
        the success of the housing units envisioned pursuant to S. 1905 
        is the ``local ownership'' in terms of policy of these units.
        6. Authorization of Appropriations: During a recent discussion 
        with a knowledgeable school administrator, it was estimated 
        that at least $100 million would be needed annually to address 
        the teacher housing needs in rural Alaska. AFN recommends that 
        Congress considers actual appropriations of at least $100 
        millions annually to implement the intent of this bill through 
        the life of this authorization.

    Since public schooling began in rural Alaska, even in the best of 
scenarios, it has been challenging to deliver consistently high quality 
instruction to Alaska Natives and other students in Alaska's rural 
schools.
    Among the many challenges facing Alaska's rural schools, is the 
high level of teacher turnover, not just from year to year, but, 
sometimes within the school year. This disruption of the instructional 
process has been shown to be associated with negative affects on 
student academic performance. [Grissmer et al, 2000]
    This high level of teacher turnover in Alaska is, primarily, a 
rural school problem. Alaska's largest urban districts have historic 
annual turnover rates between 6 and 14 percent comparable to the 
national average. [1996-2000] All Alaska districts with turnover rates 
of 30 percent or more are rural districts far from the main road 
system. A study entitled ``Retaining Quality Teachers for Alaska'', Wm. 
McDiarmid, UAA/ISER, 2000, demonstrated that a primary reason for 
teacher turnover is the lack of adequate or quality housing for 
teachers.
    Schools are required to use precious instructional funding to 
recruit and hire new teachers year after year. Again, an issue only 
rural schools in Alaska must deal with in this manner.
    In order to attract and retain quality teachers for rural schools, 
many rural school districts provide housing for their teachers; 11 
rural school districts subsidize the cost of housing if district 
teacher housing is not available. [Alaska Public School Teacher Salary 
and Benefits Report, 2002-03, Alaska Association of School Boards]. 
Recently, a rural school Superintendent told me that 8 cents of every 
school district dollar budgeted was to provide and maintain teacher 
housing. Yet again, another expense only Alaska's rural schools must 
deal with.
    While a District Superintendent, I interviewed hundreds of 
prospective teachers for the District's rural schools. One of the first 
questions teachers asked was about the availability and quality of 
teacher housing in the community they would be teaching.
    The funding proposed by S. 1905 will be a welcome relief for rural 
schools. If successful, the funding could effectively increase the 
funds spent on instruction, and could lead to improvement in 
instruction, and better student achievement.
    Providing funding for rural school teacher housing would begin to 
reduce the high teacher turnover rate in rural Alaska schools, thereby 
decreasing the costs of annually recruiting new teachers. The funds 
saved could be used in the instructional program instead.
    I congratulate Senator Murkowski and the entire Senate Committee on 
Indian Affairs for developing and sponsoring S. 1905. By removing the 
issue of teacher housing for rural Alaska's schools as an issue that 
negatively impacts student achievement, schools should be able to do a 
better job of providing a quality education.
    Thank you for the opportunity to testify on this important issue. I 
would be happy to answer questions regarding my testimony.
                                 ______
                                 

 Prepared Statement of Melissa Hill, Alaska Teacher Placement Program 
                                Director

    Senator Murkowski, please accept this testimony which has been 
endorsed by the following listed Teacher Placement Advisory Committee 
Members, in support of S. 1905 to provide habitable living quarters for 
teachers, administrators, other school staff, and their families in 
rural areas of Alaska.
    For the record, my name is Melissa Hill and I serve as the Alaska 
Teacher Placement Program Director. Our program mission is to provide 
leadership in identifying, attracting, and placing highly qualified 
educators for our State. We work collaboratively with Alaska School 
Districts, university leaders, and other educational entities to 
promote the teaching profession in Alaska. We are located at the 
University of Alaska Statewide, Academic Affairs Office of the 
President.
    We host the largest educator job fair in Alaska, post vacancies for 
Alaska School Districts, collect and maintain applications from 
teachers and administrators, and consult with educators interested in 
working in Alaska Schools. I travel throughout Alaska and the Lower 48 
meeting with educators and answering questions about teaching, living 
and working in Alaska.
    During the hiring season [February-July] in any given month our 
website receives over 116,000 hits and we will respond to over 300 e-
mail inquiries, answer over 500 phone calls, and meet or consult with 
over 200 educators during our presentations and recruiting sessions. 
When speaking with educators interested in teaching in Alaska, we 
advise them to inquire about teacher housing and ask questions such as:

  <bullet> \\\\\\Is the housing district owned?
  <bullet> \\\\\\Does the housing have running water or a honey bucket?
  <bullet> \\\\\\How much is the rent?
  <bullet> \\\\\\What type of heating systems is installed?
  <bullet> \\\\\\What is the condition of the housing?
  <bullet> \\\\\\Is it shared housing with someone else?

    We can attest to the fact that housing is a serious concern for 
educators, and it weights heavily on their decision to accept or reject 
employment in many of our rural school districts.
    In addition, limited housing also impacts the hiring and recruiting 
process. For example, it is not uncommon for ATP to post a vacancy that 
reads, ``teaching couple preferred'' or ``single male for shared 
housing''. This type of recruiting forces districts to screen out 
otherwise qualified candidates based on the limitations of housing in 
that a particular village.
    1Another factor impacting our new teachers is stagnant Alaska 
salaries. Teaching salaries in Alaska have not kept up with teaching 
salaries in the Lower 48. The lack of affordable housing, the increased 
cost of living, including food and transportation have many new 
teachers wondering if they can afford to relocate to rural Alaska. I 
spoke with a recent graduate from UAA who just completed her rural 
practicum. She indicated to me that she was interested in working in 
rural Alaska, but was not sure if she could afford it on a new 
teacher's salary. Perhaps, if affordable housing was available, this 
individual would be less apprehensive about accepting employment in 
rural Alaska. This is just one example.
    It is our professional opinion that the Teacher Housing S. 1905 
will greatly increase the Recruitment and Retention efforts going on 
around the State; help Districts redirect dollars that should be spent 
in the classroom, and offer our teachers and their families more 
options when considering employment in rural Alaska.
    Thank you for allowing us the opportunity to submit this testimony.

    ATP Advisory Committee Members and other Supporters:

    1.  Jim Hickerson, Assistant Superintendent Bering Strait School 
District.
    2.  Gary Baldwin, Assistant Superintendent Lower Kuskokwim. School 
District.
    3.  Carol Doyle, Superintendent Alaska Gateway School District.
    4.  Jeff Loftus, University of Alaska Southeast Professor.
    5.  Donna Gail Shaw, Associate Dean for Student and Curriculum 
Affairs, UAA College of Education.
    6.  Lorrie Scoles, Director Alaska New Teacher Mentoring and 
Induction Program.

Prepared Statement of Eric Madsen, Director, Rural Program Development 
        School of Education, University of Alaska Fairbanks, AK

    Senator Murkowski and members of the S. 1905 Hearing Committee: 
Thank you for the opportunity to comment on S. 1905, the Rural Teacher 
Housing Act of 2003.
    My comments are predicated on the assumption that while the 
immediate issue before us is habitable living quarters for teachers, 
administrators, and other school staff, the larger goal is increasing 
the academic achievement of the students in the eligible communities. 
Certainly any measures that enhance rural Alaska school districts' 
ability to recruit and retain skilled teachers would be helpful toward 
that larger goal. However, I believe that improving teacher housing 
would be most helpful in the context of a broader initiative.
    When Alaska was purchased from Russia in 1867, schooling for Alaska 
Native students fell under the prevailing assimilationist paradigni 
exemplified in the 1819 Civilization Fund Act, established specifically 
to ``civilize'' Native American students in the Lower 48. This paradigm 
was extended to Alaska through practices such as delegating 
responsibility for schools for Native students to missionary societies, 
and through policies such as the Nelson Act of 1905, which 
distinguished between students of mixed blood leading ``civilized'' 
lives and white students, on one hand, and students of mixed blood not 
leading ``civilized'' lives and Native students, on the other.
    In 30 years working with rural communities, I have rarely heard 
anyone suggest that teachers from outside those communities are not 
necessary and helpful components of strong, well-rounded academic 
programs. But if our goal is only to make teachers from outside rural 
communities somewhat more physically comfortable so that we can extend 
their tenure by a couple of years, we run the risk of being perceived 
as doing little more than perpetuating the assimilationist paradigm to 
another generation of rural students, which I am sure is not the intent 
of this bill. In contrast, linking such an initiative to the larger 
issues would support rural communities' efforts to develop the kinds of 
schools that reflect their values and aspirations. There are several 
ways to approach this task.
    First, while providing funds and a funding mechanism to improve 
housing for rural teachers would be a constructive step, it should be 
implemented within a context of improving housing and public facilities 
in rural communities, in general, to the extent those communities so 
desire. Absent this broader context, long-term residents of rural 
communities might reasonably ask why teacher housing should be any 
better, or any more of a priority, than housing for those who live 
there full-time.
    Second, in order to improve the overall quality of students' school 
experiences and their academic achievement, I would suggest directing a 
portion of the available funds toward improving teacher housing, to 
respond to immediate needs, and a larger portion toward assisting long-
term residents to become fully certificated, highly qualified, teachers 
in their home communities, to address the larger goal. Long-term 
residents have deep understanding of their communities, their schools, 
and their students, and many of them have years of experience in 
teaching and teaching assistance roles. Not incidentally, residents of 
rural communities also have their own housing. As my colleague Dean 
Norris-Tull observed in a conversation about Hearing, March 16, 
Anchorage Alaska Eric Madsen, Director, Rural Program Development S. 
1905, Rural Teacher Housing Act School of Education, University of 
Alaska Fairbanks this topic, supporting rural residents' aspirations to 
become educators in their home communities simultaneously addresses, in 
a very real way, both the housing issues and the larger successful 
school experiences issues.
    Such assistance might take several forms. The most direct approach 
would be to make academic scholarships available directly to long-term 
residents, contingent only upon satisfactory progress through a teacher 
preparation program. A second, and perhaps companion, form of support 
would be to fund release-time from work so that students who already 
serve in teaching assistance roles could remain close to their 
classrooms while completing their preparation programs. Third, I would 
urge you to pursue the improvement of teacher housing, but to consider 
doing so within the context of improving rural housing, in general.
    The funding mechanisms to support teachers in training and rural 
housing improvement are already contemplated in S. 1905: tribally 
designated entities and village corporations for the scholarships and 
housing initiatives, and school districts for release time funding.
    S. 1905's intent to provide habitable living quarters for rural 
teachers is a constructive step. Teachers play critical roles in the 
lives of students, and teachers who stay in rural communities long 
enough to become participants in community life and to better 
understand and appreciate their students are much more likely to 
fulfill their roles effectively. They deserve, and doubtless would 
appreciate, safe, comfortable, functional housing.
    That said, long-term residents of rural communities also deserve 
and would appreciate safe, comfortable, functional housing. Perhaps 
more to the point, rural students deserve teachers who have deep 
understanding of, and long-term commitment to, their communities. 
Certainly this includes the large number of teachers who grew up and 
trained elsewhere, but have found rural communities to be personally 
satisfying and professionally rewarding places to live, work, and raise 
their families. There are many of them, and their personal 
contributions to rural villages and their professional contributions to 
rural schools are significant and must be appreciated.
    Nevertheless, the roughly 100-year history of public schooling in 
Alaska suggests that it is most frequently the residents of rural 
communities who provide both the continuity in those schools, and also 
the orientation and the nurturing that helps new teachers from outside 
become long-term, contributing participants in those settings.
    I encourage you, Senator Murkowski, to pursue the initiative in S. 
1905, but to consider doing so within the context of improving housing 
for all of the residents of the eligible communities and assisting 
long-term residents to assume professional roles as teachers and 
administrators in their home communities and regions.
    Thank you for the opportunity to comment on S. 1905.

    Question: Would loans with a forgiveness feature be a viable 
alternative to, or option in addition to, scholarships?
    Answer: In my opinion, no. There have been several programs over 
the years, and at least one currently operating, that included payback 
or forgiveness clauses. Experience indicates that students are 
extremely reluctant to participate. I believe that their reluctance is 
rooted in the very problem this hearing is designed to address: under-
preparation for post-secondary academic work. There are many university 
students who graduated from rural schools who do well in university 
level academic programs, including those typically considered highly 
demanding. But rural high school graduates are also well aware that too 
many of their peers--some of whom graduated at the tops of their 
classes, often with honors--found themselves found themselves woefully 
underprepared for university level work. Given this ambiguity, our 
experience has been that many rural students are reluctant to assume 
large school-related debts until they have had a chance to test their 
skills in the post-secondary academic environment.
    Please allow me to add that I do not intend this response as a 
criticism of the current cadre of students, educators, administrators, 
parents, or board members in our rural schools. It is a sad consequence 
of the legacy that all of us, as participants in the rural public 
schooling, have built up over the years. That is why I encourage us now 
to pay due attention to immediate needs, such as improved housing, but 
also to more sustainable solutions, such as developing a teaching force 
with both academic expertise and deep understanding and long-term 
commitment to the communities under discussion.
                                 ______
                                 

  Prepared Statement of Carl Rose, Executive Director, Association of 
                          Alaska School Boards

    For the record, my name is Carl Rose, Executive Director of the 
Association of Alaska School Boards. On behalf of Alaska's elected 
school board members, I would like to thank Sen. Murkowski and the U.S. 
Senate Committee on Indian Affairs for tackling the issue of rural 
teacher housing.
    AASB supports S. 1905, proposing a grant program to build housing 
for school district employees in rural Alaska. Inferior or unavailable 
teacher housing has been a long-time concern for school districts in 
rural Alaska. AASB Resolution 4.4, passed by our membership in November 
2003, specifically cites inadequate rural teacher housing as a 
contributing factor in the teacher and administrator shortage.
    The lack of suitable teacher housing in rural Alaska is really 
about reducing the teacher turnover rate. It is about attracting, and 
more importantly retaining, quality educators in areas of the state 
that need them most.
    It is no surprise that rural Alaska, for the most part, lags behind 
the rest of the State, for a variety of reasons, when it comes to 
measurements of student achievement. Today, we are more serious than 
ever about changing that. Closing the achievement gap between the 
indigenous peoples of Alaska and others will require commitment-it will 
require quality instructors, involved parents, engaged students, caring 
communities, adequate funding, and yes, reasonable accommodations for 
school staff.
    We must remember, housing is a basic need. By not attending to 
this, teachers are forced to spend their valuable discretionary time 
tending to this basic need rather than on classroom planning and other 
educational activities. The impact on the continuity of instructional 
programming is profound.
    Exit interviews of departing teachers often cite their housing 
situation as a contributing factor in the decision to leave. 
Administrators lament their inability to secure funds for teacher 
housing when there are so many unmet needs in the way of student 
programs, major maintenance repairs and school construction needs.
    The reality is--housing, in many parts of rural Alaska, is 
substandard when compared to the rest of the country. Some teachers 
have complained upon seeing their housing that they were tricked into 
coming to the district. The fact is, what appears to be substandard 
housing to new hires may, in fact, be the norm for that community.
    Instead, we talk about Alaska's high starting salaries and the 
Great Alaskan Adventure in order to attract potential educators. Yet, 
for some teachers, the quality of teacher housing when they get to the 
district is anything but great. Poor insulation, leaking ceilings, and 
honey buckets, in the end, do little to retain quality educators.
    Consider these anecdotes. In Kodiak, 1 year the district placed a 
teacher with construction skills on the payroll for 2 weeks prior to 
the school year so he could upgrade a teacher housing facility that 
contained a simple barrel wood stove into a livable unit. In Arctic 
Village, two teachers new to the village arrived, assuming that the 
teacher housing available last year would be available this year. It 
was not. One teacher ultimately found housing from a contractor who was 
leaving for the school year. The other teacher stayed in the school for 
a number of weeks while another unit was made available. She then moved 
into a vacant property [a known party home with a barrel stove] while 
renovations continued.
    Last year Education Secretary Rod Paige and Sen. Murkowski were 
able to see first-hand the conditions facing rural Alaska. They, too, 
heard stories from teachers living out of classrooms, even closets.
    If we really believe that all children can learn, and if we truly 
believe that No Child should be Left Behind, then we must create the 
environment in which that can happen. Adequate teacher housing that 
helps retain quality teachers is part of that equation.
    For its part, the State of Alaska has been unable to meet the 
growing backlog of major maintenance and school construction projects 
for public schools for nearly 20 years. A tremendous backlog exists 
today-somewhere in the neighborhood of $530 million-and that does NOT 
include teacher housing. Our highest priority is to put money into the 
classroom. But skyrocketing operational costs and other mandates take 
money out of the classroom. Way down on the list of priorities is 
teacher housing.
    For well over a decade we in Alaska have been managing decline. The 
loss of buying power due to inflation, coupled with increased fixed 
costs in the operational budget, have had a tremendous impact on the 
educational dollar.
    As a young and rapidly growing State, Alaska is simply unprepared 
to address rural teacher housing at this time. Our infrastructure needs 
outpace available resources.
    In conclusion. . . For many districts, staff housing is simply low 
on the priority list when it comes to spending scarce educational 
resources. A rural teacher housing program would not only help 
alleviate an immediate problem, it would help the state recognize just 
how important adequate teacher housing is toward success in the village 
classroom. It would provide a roadmap to follow into the future.
    Thank you for your time.

      Questions for Carl Rose, Association of Alaska School Boards

    1. What has the State done recently to address rural teacher 
housing in Alaska?
    Answer: Under pressure from the State supreme court, proposition C 
passed in November 2002. General obligation bonds are paying for $170 
million in rural school construction and major maintenance projects. A 
debt reimbursement program was also implemented for communities with 
taxing authority. Funding for new schools and major maintenance meant 
that, for some rural districts, funds could be freed up elsewhere in 
the budget to address other priorities, including housing needs.
    In 2003 the Alaska Legislature passed S. 25 establishing within the 
Alaska Housing Finance Corporation a teachers and nurses housing loan 
program to assist public school teachers and registered nurses to 
purchase housing with no down payment. Loans are for owner-occupied, 
single-family housing and may be made only to an individual employed 
full-time in a public school in the state who is required to be 
certificated and holds a position as a teacher, counselor, principal, 
vice or assistant principal, provider of special education or related 
services, or as a registered nurse and is licensed to practice 
registered nursing. The loan can be up to 100 percent of the value of 
the property. The legislature appropriated $2.1 million within the 
capital budget to pay for the program. This year, Governor Murkowski is 
proposing to revamp the program to make it more user friendly for 
school districts.
    2. Why do so many districts appear unable to take steps to ensure 
teachers have adequate housing?
    Answer: It's really a matter of priorities. School districts have 
been managing decline for well over a decade in Alaska. Schools are 
faced with trying to protect the basic educational program. For 
example, trying to attract a new k-12 math teacher takes precedent. The 
$10,000 earmarked for housing renovations may be better spent on a 
travel stipend to attract a few quality teachers to the community. 
Housing needs get put on the back burner.
    3. Doesn't Alaska have reserve funds that could be used to address 
rural teacher housing needs?
    Answer: It is true that Alaska has a Permanent Fund--a State 
savings account that pays dividends to residents. It is currently 
valued at $28 billion. Like most funding sources, however, the 
Permanent Fund has strings attached. The Permanent Fund is 
constitutionally protected. Alaskans are currently debating whether or 
not to use earnings from the fund to pay for government services. We 
have been down this road before-unsuccessfully.
    4. Other States have rural areas. What is unique about Alaska's 
rural areas that make the issue of teacher housing so challenging?
    Answer: The cultural differences are many. There is the language 
barrier: English is still a second language in some areas. How you make 
eye contact matters. How fast you talk matters. How much time you give 
to a person when waiting for a response. . . matters.
    Construction and maintenance in permafrost conditions present their 
own set of obstacles. There is a short construction season dictated by 
the weather.
    Distance: Replacing an oil stove part may require flying the piece 
in to the village. You cannot run down the street to the nearest 
hardware store in a village of 200 people, with no paved roads and 
perhaps only 1 or 2 vehicles, and expect it to be stocked as if it were 
a community of 80,000.
    Living conditions: Living in a plywood cabin with a barrel stove, 
without paved roads, with one village sewage lagoon, may seem like 
third world living conditions to some, but it is the standard in some 
villages where only 100 years ago the indigenous people were nomadic. 
The challenges it poses to attracting and retaining quality educators 
are considerable.
    Safety: In many rural areas there is no police protection, only 
Village Public Safety Officers.
    5. How can we help you? What can we do to best address rural 
teacher housing in Alaska?
    Answer: This is a great first step. Highlight the issue. Create a 
housing program that is workable and easy for districts to participate 
in. Make it a priority. Then fund it.
                                 ______
                                 

   Prepared Statement of Roger Sampson, Commissioner, Department of 
                    Education and Early Development

    Many of Alaska's remote, rural school districts face chronic 
teacher shortages. Each year districts must actively recruit educators 
to fill as many as half of the available teaching jobs. For the most 
part, the educators that take the positions are new to the teaching 
profession and have no experience with the unique cultures and 
lifestyle found in rural Alaska. It is difficult for the teachers to 
adapt to life in remote villages, and most teachers do not stay long.
    The lack of availability of quality housing is certainly one issue 
that teachers note when they leave remote districts. Teachers rarely 
can find private living quarters, and when they are able to share 
apartments or housing they are forced to pay extremely high rent for 
substandard living conditions. In extreme cases, teachers and 
administrators are unable to find any housing, and are forced to live 
at the school.
    The high teacher turnover rate in rural villages is one of several 
factors that negatively impacts student performance. There is a direct 
link between high turnover rates and low proficiency on State 
assessments. In fact, our lowest performing schools in the State are 
found in rural Alaska. As we work to reform the education system, we 
must find ways to help our rural districts attract highly qualified 
educators, and keep them in the districts once they are hired.
    I believe that the Rural Teacher Housing Act is a critical tool to 
help turn the tide in Alaska's remote school districts. It will 
certainly help districts meet one of the major challenges they face in 
attracting educators. I urge you to support this legislation.
                                 ______
                                 

        Prepared Statement of Christopher Simon, Superintendent

    Thank you for your interest and involvement in education issues in 
rural Alaska and for working to address our concerns related to teacher 
housing. I welcome the opportunity to provide support for S. 1905 and 
share experiences of providing teacher housing with you.
    The Yukon-Koyukuk School District covers the Western interior of 
Alaska, an area of 65,000 square miles. Geographically, the district is 
larger than the state of Washington. Our schools serve nine villages of 
about 1,650 people with 430 school-aged children in grades K-12. More 
than 90 percent of the students are Koyukon or Tanana Athabaskan 
Indians. Except for Minto and Manley Hot Springs, travel to and from 
our schools is by scheduled commuter or charter air service. Raven 
Correspondence School is a statewide correspondence program, which 
embraces 1,399 students and their families.
    Y-KSD is a Rural Educational Attendance Area [REAA] whose schools 
are governed by the Regional School Board elected by voters of the 
communities under the laws of the State of Alaska. Y-KSD employs 64 
certified teachers, administrators and specialists, most of whom are 
endorsed in their field of placement.
    Y-KSD is an equal opportunity agency whose programs and employment 
are available to all qualified individuals regardless of race, creed, 
gender, disability or country of origin. Y-KSD, as per Federal law, is 
a gun-free and drug-free place for learning and working.
    According to standardized test scores over the last 13 years, the 
students at our village sites performed between the 18th and 40th 
percentile. Over the last 5 years there has been an increase in the 
scores, which are currently sitting between the 30th and 40th 
percentile. Under the Federal law of No Child Left Behind, each school 
is to meet Adequate Yearly Progress or eventually face sanctions. At 
this point, four of our five village sites meet AYP, four schools are 
at AYP Level I, and one is at AYP Level II.
    In order to provide a sound education, attain better test results 
to meet AYP and increase students' test scores, all rural schools need 
outstanding teachers and principals.
    One of our biggest obstacles in providing a sound education is 
teacher and principal turnover. Between this year and last year, Y-KSD 
had a 29-percent turnover in teachers and a 44-percent turnover in 
principals. Three teachers and one school counselor left one or more of 
our communities since school started in August. Studies have shown that 
hiring teachers with 3 to 5 years of experience pays the biggest 
dividends in the classroom. What we have now is rural districts hiring 
young teachers who stay 2 to 4 years then leave to find employment in 
an urban district or one that is connected by the road system. We are, 
in fact, training teachers. We are the ones who need experienced, 
dedicated teachers for the children under our care.
    One of the first questions an interested teacher or principal asks 
is ``Is housing provided? And if so, what is the rent?'' Not long 
afterward is the question: ``Do I have to share housing?'' Adequate 
teacher housing is vital to the success of our students. Unfortunately, 
the choice of spending scarce resources for classroom equipment and 
supplies or for teacher housing is something we face every year. Y-KSD 
would rather not be in the business of teacher housing because it is 
being operated at a loss. Ten years ago, Y-KSD gave half of its teacher 
housing to a village corporation free of charge. Last summer, this same 
corporation gave the last housing unit back to the district. Providing 
housing is a time-consuming and financial burden to any organization. 
However, Y-KSD provides this service at a loss so quality teachers may 
be hired to teacher the children of this district.
    The issue of substandard teacher housing is raised in this bill. 
Yes, this is an issue this district faces. Two years ago, Y-KSD 
provided a rental free-of-charge to a couple and their two young 
children. This district did not want to be held responsible if any harm 
came to this young family due to the condition of the building. 
Currently, two teachers are renting a duplex that is 29 years old and 
very inefficient. The estimated operational cost is $247,000 over the 
next 6 years. Four years ago, in another village, Y-KSD purchased a 
house which included a storage shed. This same shed had been converted 
to a housing unit. Three years ago, a young man and his daughter lived 
in the school for 2 months before finding a local house to rent.
    This district has been trying to meet the housing needs of its 
teachers. But in doing so, it takes funds and maintenance time away 
from the schools. Since 2000, Y-KSD spent $702,138 on housing instead 
of the classroom.
    The cost of constructing a two bedroom, one bathroom house in 2002 
was $169,000. Included in this cost is the purchase price of $99,677, 
and $69,992 for freight, construction, and utility hook-ups. An 
estimated 17 rental units in six communities are required to meet our 
teacher housing needs in the next few years. Y-KSD simply does not have 
the amount of funds necessary to build housing.
    In closing, teacher housing is a necessity for rural districts, 
usually operated at a loss and takes scarce resources away from the 
school. Thank you again for your interest and concern.

                                 <all>

</pre></body></html>
